<html>
<title> - OVERSIGHT HEARING ON ISSUES REGARDING THE NEW NPS METHODOLOGY USED TO EVALUATE THE ACHIEVEMENT OF NATURAL QUIET RESTORATION STANDARDS IN GRAND CANYON NATIONAL PARK</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





     ISSUES REGARDING THE NEW NPS METHODOLOGY USED TO EVALUATE THE 
  ACHIEVEMENT OF NATURAL QUIET RESTORATION STANDARDS IN GRAND CANYON 
                             NATIONAL PARK

=======================================================================

                           OVERSIGHT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      MAY 25, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-33

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources


                    U.S. GOVERNMENT PRINTING OFFICE
58-698 <l-ar/r-ar>          WASHINGTON : 1999

                                 ______




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HUNT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          CARLOS A. ROMERO-BARCELO, Puerto 
JOHN J. DUNCAN, Jr., Tennessee           Rico
JOEL HEFLEY, Colorado                NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
WALTER B. JONES, Jr., North          DONNA CHRISTIAN-CHRISTENSEN, 
    Carolina                             Virgin Islands
CHRIS CANNON, Utah                   RON KIND, Wisconsin
RICK HILL, Montana                   JAY INSLEE, Washington
JIM GIBBONS, Nevada                  TOM UDALL, New Mexico
MARK E. SOUDER, Indiana              MARK UDALL, Colorado
DON SHERWOOD, Pennsylvania           JOSEPH CROWLEY, New York
                                     RUSH D. HOLT, New Jersey
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 25, 1999........................................     1

Statements of Members:
    Berkley, Hon. Shelley, a Representative in Congress from the 
      State of Nevada............................................     5
        Additional material submitted by.........................     7
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................    12
        Prepared statement of....................................    12
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     2
    Romero-Barcelo, Hon. Carlos A., a Delegate to Congress from 
      the Territory of Puerto Rico...............................     7
        Prepared statement of....................................     4
    Vento, Hon. Bruce F., a Representative in Congress from the 
      State of Minnesota.........................................     4

Statements of witnesses:
    Alberti, John, Owner, JR Engineering.........................    25
        Prepared statement of....................................   101
    Bassett, Steve, President, United States Air Tour Association    66
        Prepared statement of....................................    69
    Lowey, Jackie, Deputy Director, National Park Service; 
      accompanied by Wes Henry, Research Administrator, National 
      Park Service, and Robert Arnberger, Superintendent, Grand 
      Canyon National Park.......................................    18
        Prepared statement of....................................    20
    Resavage, Roy, President, Helicopter Association 
      International..............................................   115
        Prepared statement of....................................   117
    Snow, Jacob, Assistant Director, Clarke County Department of 
      Aviation, McCarran International Airport...................    86
        Prepared statement of....................................    90
    Stephen, Alan R., President, Twin Otter International, Inc...    39
        Prepared statement of....................................    41
    Traynham, David, Assistant Administrator for Policy, Planning 
      and International Aviation, Federal Aviation 
      Administration; Thomas Connnor, Office of Energy and 
      Environment, Federal Aviation Administration...............    28
        Prepared statement of....................................    24

Additional material supplied:
    Hingson, Dickson J., Ph.D., Rockville, Utah..................   137
    Santini, Jim, United States Air Tour Association, Rebuttal of 
      NPS and FAA testimony at hearing...........................   125
    Sierra Club Washington, DC, statement of.....................   141

 
 OVERSIGHT HEARING ON ISSUES REGARDING THE NEW NPS METHODOLOGY USED TO 
  EVALUATE THE ACHIEVEMENT OF NATURAL QUIET RESTORATION STANDARDS IN 
                       GRAND CANYON NATIONAL PARK

                              ----------                              


                         TUESDAY, MAY 25, 1999

              House of Representatives,    
                 Subcommittee on National Parks    
                                      and Public Lands,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
Room 1324, Longworth House Office Building, Hon. James Hansen 
[chairman of the Subcommittee] presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Committee will come to order.
    Good morning, and welcome to the oversight hearing which 
will address an ongoing issue in the Grand Canyon National 
Park. This issue deals with the relationship between air tour 
overflights and the assumed non-attainment of substantial 
restoration of natural quiet of the Grand Canyon. I will be 
brief because I want to get right to the hearing, but I do have 
a few comments.
    It was not even a year ago that this Subcommittee heard 
testimony that was extremely convincing to me and others that 
the Park Service had made some major errors in their use of the 
integrated noise model of the 1994 report to Congress which 
looked at the effects of overflights on the National Park 
System. In fact, the testimony was convincing enough for me to 
conclude that natural quiet has been restored in the Grand 
Canyon. However, instead of thoroughly scrutinizing and 
integrating the new scientific analysis and information 
provided by these very reputable reviewers and to new 
regulations, the Park Service, has instead, developed a new 
standard, one that is unattainable and will have devastating 
effects on the core industry.
    The January 26 public notice in The Federal Register states 
that the Park Service, to use their language, ``will use this 
refined methodology in future restoration of natural quiet in 
the Grand Canyon National Park unless science or public 
planning process provides better approaches.''
    The clear meaning here is that this new standard is to be 
immediately used as the new measuring stick to see if the 
natural quiet has been restored without the benefits of peer 
review or at the very least. This, to me, says two important 
things:

          One is that the Park Service presents this issue as a 
        moving target. When, for example, they are shown by 
        good scientific study that substantial restoration of 
        natural quiet has occurred even by their own standards, 
        they switched to a harder-to-achieve and less 
        obtainable different threshold. This is a common and 
        very frustrating ploy of the environmental community: 
        As soon as you get close to solving the problem, move 
        the target.
          Secondly, it seems to me that the Park Service is 
        acting in less than good faith when they state, for 
        example, that they may change to a ``better approach.'' 
        By this, I assume them to mean that they might change 
        this new standard if science shows them a better way. 
        However, last September, we had some distinguished 
        acoustical scientists in here and they provided solid 
        evidence that the Park Service had made some serious 
        errors. Yet, what happened to this? I don't think that 
        the Park Service looked at any of it, and now with this 
        public notice we are supposed to believe that more good 
        science may change things. Based on the past evidence, 
        I am a little dubious.
    Hopefully, this oversight will bring more light, so that we 
can finally come to some conclusion on this issue, and I 
believe the sooner the better, as natural quiet has surfaced in 
national parks beyond the boundaries of the Grand Canyon. In 
Michigan and in Biscayne Bay, a national park in Florida, to 
name two, they are both looking at eliminating a variety of 
traditional park uses because of concerns of natural quiet. We 
need to take a hard and careful look at what we are going to do 
with this.
    I want to welcome our witnesses here, and because time is 
short, I am going to ask them all to stay within their five 
minutes.
    Now, I have another problem, and that is that I am one of 
the nine members of the Cox Commission. The Cox Commission is 
looking to see whether or not there was quid pro quo with the 
Chinese development regarding things such as delivery systems, 
warheads, and all that intrigue. For some reason, I am told by 
someone way above my pay grade that I darn well better be over 
there at 10:30 or I am in big trouble. So, I have asked my good 
friend from Tennessee, the chairman of the FAA Subcommittee and 
also a member of this Committee, to chair the meeting when I 
have to leave, and which I would appreciate.
    I thank you all for being here, and we are grateful that 
our colleague from Nevada, Shelly Berkley, will be our lead-off 
witness. So, we will start with the Congresswoman from Nevada 
and move on as rapidly as we can.
    With that, I will turn to the gentleman from Puerto Rico 
for any opening statement he may have.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to this oversight hearing 
which will address an ongoing issue in the Grand Canyon 
National Park. This issue deals with the relationship between 
air tour overflights and the assumed non-attainment of 
substantial restoration of natural quiet of the Grand Canyon.
    I will be very brief because I want to get right to the 
hearing, but I do have a few comments to make. It was not even 
a year ago that this Subcommittee heard testimony that was 
extremely convincing to me and others that the Park Service had 
made some major errors in their use of the Integrated Noise 
Model for the 1994 Report to Congress which looked at the 
effects of overflights on the National Park System. In fact, 
the testimony was convincing enough for me to conclude that 
natural quiet has been restored in the Grand Canyon.
    However, instead of thoroughly scrutinizing and integrating 
the new scientific analysis and information provided by these 
very reputable reviewers into new regulations, the Park Service 
has, instead, developed a new standard--one that is 
unattainable and will have devastating effects on the air tour 
industry. The January 26th Public Notice in the Federal 
Register states that the Park Service, to use their language, 
``will use this refined methodology in future restoration of 
natural quiet at GCNP, unless science or public planning 
processes provides better approaches.'' The clear meaning here 
is that this new standard is to be immediately used as the new 
measuring stick to see if there natural quiet has been restored 
without the benefit of a peer review, at the very least.
    This to me says two important things. One is that the Park 
Service presents this issue as a moving target. When, for 
example, they are shown by good scientific study that 
substantial restoration of natural quiet has occurred, even by 
using their own standards, they switch to a harder-to-achieve 
and less attainable different threshold. This is a common and 
frustrating environmental ploy--as soon as you get close to 
solving the problem, move the target.
    Secondly, it seems to me that the Park Service is acting in 
less than good faith when they state, for example, that they 
may change to a ``better approach.'' By this I assume them to 
mean that they might change this new standard, if science shows 
them a better way. However, last September we had some 
distinguished acoustical scientists in here and they provided 
solid evidence that the Park Service had made some serious 
errors. Yet what happened to this? I don't think that the Park 
Service looked at any of it. And now from this public notice we 
are supposed to believe that more good science may change 
things. Based on the past evidence, I wouldn't be too sure.
    Hopefully, this oversight will bring more things to light 
so that we can finally come to some conclusion on this issue. 
And I believe the sooner the better as natural quiet has 
surfaced in national parks beyond the boundaries of the Grand 
Canyon. Isle Royale in Michigan and Biscayne National Park in 
Florida, to name two, are both looking at eliminating a variety 
of traditional park uses because of concerns with natural 
quiet. We need to take a hard and careful look at where we are 
going with this.
    With that, I want to welcome our witnesses here today. 
Because time is short, I would like to ask that each of them 
earnestly try to keep the oral statement to 5 minutes or less.

   STATEMENT OF HON. CARLOS A. ROMERO-BARCELO, A DELEGATE TO 
           CONGRESS FROM THE TERRITORY OF PUERTO RICO

    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I will be very 
brief also. I have to make a few comments when it deals with 
something as important as the Grand Canyon National Park, which 
is one of the most magnificent units of the National Park 
system. And it is not surprising, then, that there is a lot of 
interest in the park's management, especially in the issue of 
aircraft noise.
    Congress, in 1987, directed the NPS to develop a plan to 
restore the natural quiet of the park. In 1994, the NPS 
reported to Congress that the natural quiet of the park had not 
been substantially restored.
    Today's hearing focuses on the methodology used by the 
National Park Service to evaluate the achievement of natural 
quiet restoration standards in the Grand Canyon National Park.
    The NPS, in cooperation with the FAA, has proposed a number 
of refinements to the methodology for determining the 
substantial restoration of natural quiet. It should be noted 
that the underlying National Park Service definition of 
substantial restoration of natural quiet has been upheld by the 
courts. Aircraft overflights have been a source of continuing 
problems for Grand Canyon National Park, especially in light of 
the explosion of overflights that have occurred since the 1987 
Act. We are pleased by the recent joint efforts of the National 
Park Service and the Federal Aviation Administration to address 
these problems, and we look forward to hearing from the 
witnesses, and in particular, from our colleague, Congresswoman 
Shelly Berkley from Nevada.
    I would also like to also excuse myself that I will have to 
be leaving around 20 minutes of, because the Secretary of the 
Navy is in my office, and we have a real substantial problem 
with noise, which is even much more severe than the one in the 
Grand Canyon--noise and explosions on the Island of Vieques.
    Mr. Chairman, we appreciate the attendance of our witnesses 
and look forward to their testimony. Thank you.
    [The prepared statement of Mr. Romero-Barcelo follows:]

 Statement of Hon. Carlos Romero-Barcelo, a Delegate in Congress from 
                         the Territory of Guam

    Mr. Chairman, Grand Canyon National Park is one of the 
magnificent units of the National Park System. It is not 
surprising then that there is a lot of interest in the park's 
management, especially on the issue of aircraft noise. Congress 
in 1987 directed the NPS to develop a plan to restore the 
natural quiet to the park. In 1994, the NPS reported to 
Congress that the natural quiet of the park had not been 
substantially restored.
    Today's hearing focuses on the methodology used by the 
National Park Service to evaluate the achievement of natural 
quiet restoration standards in Grand Canyon National Park. The 
NPS, in cooperation with the FAA, has proposed a number of 
refinements to the methodology for determining the substantial 
restoration of natural quiet. It should be noted that the 
underlying National Park Service definition of substantial 
restoration of natural quiet has been upheld by the Courts.
    Aircraft overflights have been a source of continuing 
problems for Grand Canyon National Park, especially in light of 
the explosion of overflights that has occurred since the 1987 
Act. We are pleased by the recent joint efforts of the National 
Park Service and the Federal Aviation Administration to address 
these problems.
    Mr. Chairman, we appreciate the attendance of our witnesses 
today and look forward to their testimony.

    Mr. Hansen. Thank you. The gentleman from Minnesota?

STATEMENT OF HON. BRUCE F. VENTO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Vento. Thank you, Mr. Chairman. This problem, in fact, 
the study that occurred out of the 100th Congress--I don't 
remember if it was 1987 or 1988 that we enacted legislation to 
limit overflights over the Grand Canyon, with the support of 
Senator McCain and many others. It took a long time for the 
Park Service to go through this process. Obviously, I had hoped 
that they would be open to future changes, depending upon what 
the acoustical science, and so forth, would provide. I would 
say that, obviously, we had limits over a series of parks at 
that time, as you recall, Mr. Chairman, including Haleakala and 
Glacier and a number of others.
    I would just point out that the impact of aircraft 
overflight, especially related to tourism, over many of our 
parks and other types of new uses that are coming into vogue, 
whether it would be personal watercraft and/or snowmobiles, 
are, in fact, having an impact on, first of all, of course, the 
preservation of the areas and the enjoyment as it is 
experienced by others. Obviously, it has been an important 
part. The aircraft over at the tour industry has been 
interested in following regulation and cooperating. Many of the 
details of some of these rules are often left to those that can 
work on them full time because they require a lot of attention 
and study.
    I know that you have had a series of hearings on this in 
the past year, so I hope to get up to speed a little bit today 
on what the status is. But I think the goal is pretty clear in 
terms of trying to preserve the visitor experience at the Grand 
Canyon. Perhaps at other parks, as we look at other types of 
impacts, as I have pointed out, from other types of technology 
that are occurring, whether it is snowmobiles or personal 
watercraft or yet others that I can't anticipate, I think we 
should try to be supportive of good science and of good 
policies that are attempting to be put in place and recognize 
that trying to harmonize these may result in some businesses 
changing the mode in which they have operated without 
regulation in the past. Although, I would point out again, that 
this industry has been somewhat cooperative in terms of the 
goal, but I look forward to the testimony and to learning more 
about some of the specifics. Thank you, Mr. Chairman.
    Mr. Hansen. I thank the gentleman. You may recall back in 
the 1980's, when we did this before, we thought we had solved 
the problem. But then you get into the safety issue and then 
you get into the noise issue. At that time, Moe Udall was the 
chairman of the Committee. You may recall Tony Coehlo was part 
of that. Many of us went out there and many of us confessed 
that we had flown airplanes right down the middle of there and 
repented of our many past sins for doing that.
    [Laughter.]
    We thought we pretty well had this thing resolved at one 
time, and now you get into this acoustical issue; it is kind of 
like global warming; there are 50 experts on both sides of this 
one.
    Having been one of the old dogs on the Armed Services 
Committee and in procurement, I constantly am asking about new 
technology, as you alluded to. I am amazed at some of the 
technology we are now seeing come about regarding aircraft and 
possibly a dramatic change from what we have expected in the 
past.
    With that said, I would like to turn to our colleague from 
Nevada.

STATEMENT OF HON. SHELLEY BERKLEY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Ms. Berkley. Good morning. Mr. Chairman and members of the 
Subcommittee, thank you for allowing me to speak today in 
support of the air touring industry. I appreciate your efforts 
to strike a fair balance between protecting our fragile Grand 
Canyon environment, while addressing the needs and interests of 
more than a half million travelers who view the splendor of the 
Grand Canyon each year by air. Today, I ask you to consider a 
rulemaking that would strike a fair balance that enables 
visitors to experience the majesty of the Grand Canyon either 
from ground level or from the air.
    As a business-minded Member with a strong environmental 
record, I realize just how difficult finding compromises may 
be. I, too, want to preserve this natural wonder for our 
children's grandchildren. That is undisputed. However, I feel 
that I must point out just how critical the air tour industry 
is to my home State. This industry has been a vital part of our 
economy and our way of life for more than 60 years. Since 1937, 
it has wooed tourists and locals who view Las Vegas as the 
gateway to the Grand Canyon. If the Park Service is permitted 
to redefine the parameters of natural quiet to include an 
aircraft noise threshold of flight decibels below natural 
ambient sound, it lays the foundation for the elimination of 
this industry. Valuable jobs would be lost and families in my 
district will be hurt.
    According to a study by the University of Nevada, Las 
Vegas, my alma mater, air touring contributes more than $374 
million each year to the Nevada tourism economy. This is an 
enormous amount of money on which my constituents' livelihoods 
depend.
    Secondly, the industry allows thousands of individuals, who 
would not normally be able to visit our national park on foot, 
the opportunity to view the Grand Canyon. Without air tours, 
many older Americans, many veterans, and the disabled would be 
denied this magnificent opportunity. Many others who are on a 
tight family vacation schedule or our international visitors 
whose schedules simply do not allow for hiking the back country 
will also miss out on this fabulous opportunity.
    I fear that the Federal Aviation Administration and the 
National Park Service's proposed natural quiet methodology 
would demolish this tradition. Serious concerns have been 
raised that the National Park Service's overstating audibility 
of air tour aircraft by three things:

          One, underestimating natural noise levels in the 
        Canyon by using the quietest times of the day as 
        representative noise levels during all times of the 
        day.
          Number two, overstating aircraft noise levels by not 
        adequately accounting for barriers such as Grand Canyon 
        walls that often intervene.
          And number three, overstating aircraft noise levels 
        by assuming that they fly at higher speeds and power 
        settings than they actually do.
    A decade ago, special Federal Air Regulation 52 was 
implemented in the Grand Canyon. I feel that this regulation 
meets the congressional mandate of the Overflights Act, which 
called for a substantial restoration of natural quiet in the 
Canyon. It reduced aircraft noise significantly; even the 
agency's own analysis revealed that noise complaints decreased 
by 92 percent.
    I am not the only one concerned about the viability of this 
industry. The State of Nevada is so concerned that the 
legislature passed an emergency resolution, S.J.R. 21, just two 
weeks ago, supporting the southern Nevada air tour industry. 
Mr. Chairman, I ask unanimous consent that the entire text of 
S.J.R. 21 be entered into the record.
    Mr. Hansen. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8698.001
    
    [GRAPHIC] [TIFF OMITTED] T8698.002
    
    [GRAPHIC] [TIFF OMITTED] T8698.003
    
    [GRAPHIC] [TIFF OMITTED] T8698.004
    
    [GRAPHIC] [TIFF OMITTED] T8698.005
    
    Ms.T4 Berkley. As I stated earlier, I am a strong supporter 
of our environment, but I ask you today, is there a more 
environmentally-sensitive way to see the Grand Canyon than by 
air? Air tour passengers leave no footprints, dispose of no 
garbage, flick no burning cigarettes into the brush. They 
simply fly over the Canyon, take pictures, and return with 
precious memories.
    Mr. Chairman, we all share a fundamental commitment to 
protect our national parks and our natural resources. But, as 
Members of Congress, we also must strike a balance between the 
needs and requirements of all of our citizens. We must seek to 
produce regulations based on scientific information and public 
input that will not sacrifice the environment, the interests of 
the air tour industry, or the economic benefits to our local 
economy.
    I would like to thank you for your kind attention, and I 
ask that an extension of my remarks be submitted for the 
record.
    [The prepared statement of Ms. Berkley follows:]
    Mr. Hansen. Without objection, and we thank the gentlelady 
from Nevada.
    Our other expert witness is also a member of the Committee. 
I mean by that, our other member who wanted to testify, the 
gentleman from Nevada. The gentleman is recognized.

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman. On behalf of the 
State of Nevada and the one-half million tourists who each year 
see the magnificent Grand Canyon, I want to thank you for 
holding this hearing, and it has taken a considerable amount of 
effort, I know, to strike a balance between the need to protect 
our fragile Grand Canyon environment and the air tourism 
industry, and it is greatly appreciated. With that, Mr. 
Chairman, what I would like to do is submit my comments for the 
record at this time, and yield back the balance of my time for 
you.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of Hon. Jim Gibbons, a Representative in Congress from the 
                            State of Nevada

Mr. Chairman:
    On behalf of the State of Nevada and the 1/2 million 
southern Nevada tourists who each year see the magnificence of 
the Grand Canyon by air--thank you for holding this important 
oversight hearing today.
    Your considerable efforts to strike a balance between the 
need to protect our fragile Grand Canyon environment and the 
air tourism industry is greatly appreciated.
    Tourism is a mainstay of our economy in Nevada and the air 
tour industry has been a vital part of Nevada's tourism 
industry for more than 70 years.
    Today, I speak to you as both a member of Nevada's 
Congressional Delegation, deeply concerned about the future of 
our air tour industry, as well as a long-time aviator.
    In addition to being a retired commercial airline and 
military pilot, I served as a combat pilot in the Vietnam and 
Persian Gulf War.
    I am a graduate of the Air Force's Air Command and Staff 
College, and Air War College, and recently retired as a Colonel 
in the Air Force Reserves.
    I highlight my aviation experience to demonstrate my 
personal interest in this issue and the air tour industry. Our 
successful Nevada based, small business enterprises have earned 
the support of our entire Nevada Congressional delegation, as 
well as Governor Kenny Guinn.
    Unfortunately, Mr. Chairman, to put it in military terms--
the National Park Service (NPS) has launched a pre-emptive 
strike against Nevada's air tour community.
    I concur entirely with the assessment of the United States 
Air Tour Association (USATA).
    If the Park Service is permitted to redefine the parameters 
of natural quiet to include an aircraft noise threshold of 8 
decibels below natural ambient sound--or anything even close to 
that--the southern Nevada air tour industry will be put out of 
business.
    And, while the Park Service's action of redefining natural 
quiet does not in itself eliminate air touring over the Grand 
Canyon, it certainly lays the foundation for such an action.
    Once this new noise threshold is in place, the Park 
Service's next step may be to press for regulations requiring 
all aircraft flying over the Grand Canyon to meet this 
unreasonable sound limit.
    Then, the coup de grace--the air sound threshold will be 
adopted for all mechanized vehicles using NPS roads, water and 
snow--meaning trucks, boats and snowmobiles.
    Throughout my aviation career, I have had the pleasure of 
flying many aircraft, but have never seen or heard of a powered 
aircraft which can meet an 8 decibel below natural ambient 
sound noise limit.
    What is most disturbing, Mr. Chairman, is that this latest 
NPS action is unwarranted. As acoustic experts will testify to 
today, the Park Service has absolutely no reasonable scientific 
basis for this action--just as Superintendent Arnberger 
admitted before this Committee during last September's hearing.
    The agency has simply decided that the Special Federal Air 
Regulation (SFAR) 50-2 did not meet the agency's personal 
objectives, so they want to change the ground rules in midair.
    A decade ago, SFAR 50-2 was implemented in the Grand 
Canyon. It more than meets the Congressional mandates of the 
Overflights Act contained in Public Law 100-91 which called for 
the substantial restoration of natural quiet in the Canyon.
    The regulation made the skies over the Grand Canyon safer, 
and it reduced aircraft noise significantly.
    The agency's own analysis revealed that noise complaints 
following implementation of SFAR 50-2 decreased by 92 percent.
    However, we now see the NPS trying to take these 
regulations one step further--or should I say leaps and bounds 
further.
    Indeed, one has to wonder if the Park Service or FAA even 
has the statutory authority under the decade-old, Overflights 
Act to implement further regulations in the Grand Canyon.
    Furthermore, I am extremely concerned about aviation safety 
as a result of this redefinition of natural quiet. On the 
surface, they want us to believe that these actions are in the 
name of environmental protection.
    In reality, the Park Service appears to be seeking nothing 
less than an expansion of its own regulatory authority. 
Frankly, this latest NPS action is a back door approach to 
airspace regulation.
    I addressed this issue in the July '97 Senate Commerce 
Committee Hearing on S.268.
    That legislation would have statutorily turned regulatory 
authority for national park airspace over to the National Park 
Service.
    I opposed that action on the fundamental basis that it 
would throw America's national airspace system into chaos--who 
would manage or even regulate it--Mr. Chairman, this is de-ja-
vu.
    Since Congress won't give the Park Service the statutory 
authority it seeks, the agency is using political maneuvering 
and political pressure on the FAA to get what it wants.
    All under the guise of preserving and protecting the 
environment!
    What more environmentally-sensitive way is there to see the 
Grand Canyon than by air? Air tour passengers leave no 
footprints, dispose of no garbage, flick no burning cigarettes 
into the brush.
    They simply fly over, take a few pictures, and return with 
lifelong memories of spectacular sights. More than 62 percent 
of them are either very young, elderly, disabled or suffer from 
other health problems which makes walking into the Grand Canyon 
unrealistic.
    Others who visit the Canyon by air are on tight family 
vacation or international visitor schedules, and simply don't 
have the time or inclination to hike the backcountry.
    Mr. Chairman, according to a study by the University of 
Nevada-Las Vegas, air touring contributes more than $374.8 
million directly to the Nevada tourism economy each year. Air 
touring is a vital part of the Las Vegas and Nevada landscape. 
We want to keep it that way,
    Our state has been very concerned about the future of this 
industry, and two weeks ago the Nevada Legislature passed an 
emergency resolution--SJR 21--supporting the southern Nevada 
Grand Canyon air tour industry.
    In SJR 21, the Nevada Senate and Assembly jointly expressed 
its concern regarding any proposal to redefine the space in 
which aircraft may be flown over the Grand Canyon.
    SJR 21 urged the Congress of the United States to ``. . . 
effect an outcome for the southern Nevada air tour industry 
that will protect, support and sustain the viability of this 
significant contributor to the tourism economy of the State of 
Nevada and the enjoyment of visitors and sightseers.''
    I ask unanimous consent that the entire text of this joint 
Resolution--SJR 21--be entered into today's hearing record.
    Mr. Chairman, we are all environmentalists in one way or 
another. We all seek protection for our natural resources.
    But, the environment can be balanced with America's other 
important industries and activities. As Members of Congress, we 
have been entrusted with the responsibility of striking a 
harmony between the needs and requirements of all citizens.
    This latest action by the Park Service is not about 
balance. It's about dismantling this vital segment of the 
tourism industry piece-by-piece. We have a duty--a 
responsibility--to not let that happen.
    I sincerely appreciate your leadership in helping to ensure 
that a balance is struck which adequately preserves our 
environment as well as a tourism industry that is so vital to 
the State of Nevada.
    Thank you, and I yield back the balance of my time.

    Mr. Hansen. The gentleman's testimony will be included in 
the record, and I appreciate your comment.
    It has always been my prerogative--the young lady is free 
to join us, if she would like to, and also we may want to ask 
you some questions.
    Ms. Berkley. Would you like me to sit down?
    Mr. Hansen. Well, whatever; if you have some place to go 
and you are in a hurry, we understand.
    Ms. Berkley. I think I am all right for the immediate time-
being, but I have people that will be going to my office very 
soon to be conducting issues.
    Mr. Hansen. Well, we appreciate your testimony. Thank you 
so much.
    Let me just say, it has been kind of the custom of this 
Committee, since we have taken it, to go to the members before 
the chairman. As I stated earlier, I do have to go to this Cox 
Commission. I am going to turn the chair over to the gentleman 
from Tennessee. He was also the chairman of the FAA Committee, 
which we feel it very appropriate that he would take the chair 
for a few moments.
    I would like to comment on your testimony. Like you, we 
receive a lot of attention on this particular issue. Between 
this and Gettysburg, I don't know if I have had any more calls. 
There seems to be a tight issue going on up there, and we just 
get inundated with letters from both areas.
    As I mentioned to the gentleman from Minnesota, I thought 
we resolved part of this in the 1980's, when we did that 
overflight thing; possibly we did not. We have had as many 
experts on this as you can imagine--both sides--one of the 
reasons we think this thing should be resolved.
    It is amazing to me how many letters that I have received 
from foreign visitors. I mean, why they even take the time to 
write amazes me, especially from Germany, from England, Japan; 
people saying, ``We really don't have a lot of time, but we did 
go to'' St. George, Las Vegas, Kanab, wherever it may be. ``We 
did have this grand opportunity to fly over this canyon.''
    And I have found that, as you pointed out, and I agree with 
your statement, that one of the exhilarating, almost spiritual 
experiences for a lot of those people is to look over what many 
people consider one of the wonders of the world. Not everybody 
has the time or the ability to walk down the Bright Angel or 
the Kaibab, or run the river. I have done both of those 
canyons, and I have run the river three times, and it is a 
great experience and one of the things that people soon develop 
a great constituency for the Grand Canyon.
    I honestly feel that it is kind of important that we 
somehow come up with some moderation of this thing to resolve 
it at this time, if we possibly can. You would be surprised at 
the way some people respond to this. We received a number of 
letters that I thought were almost humorous saying, ``Well, why 
do you even let them on the ground?'' I mean, ``let's turn this 
thing around. Just have it for overflights and close the south 
rim and the north rim because more people could enjoy it that 
way than they could on the ground.'' It was kind of startling 
to me to read things such as this.
    Also, a number of private pilots, which I am a private 
pilot, but I don't think that I subscribe to this, saying ``I 
resent those people walking up and down those trails. Why do I 
have to see them when I am up there?'' So you kind of get both 
sides of this argument, and it does not always come out the 
same way.
    I am amazed, as I was talking to the Williams Company, who 
will probably be the next leaders in small aviation engines, 
which will be a real threat to Continental and Liconmen, that 
they are building the most powerful engine ever built that is 
so quiet, you can't hear it 50 feet away. What will that mean? 
When you get down to the point that you can't hear them up 
there, what does that have on it?
    So, you are stuck with a number of these issues that are 
staring you in the face, and a very tough issue. I would like 
to say that I appreciate--I don't think that there is anybody 
here that is going to testify today that their intentions are 
not pure, and they are trying to do what is best for the park 
and for those who want to visit the park, and I would 
appreciate that.
    With that said, I would like to turn the chair over to my 
good friend from Tennessee, Mr. Duncan, and I will run over to 
this Cox Commission thing which I mentioned to you. It is a 
command performance; I can't get out of it, and I wish I wasn't 
part of that committee.
    Anyway, the gentleman from Puerto Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I have no 
questions for our colleague. Thank you very much for your 
testimony.
    Ms. Berkley. Thank you, Ranking Member. I can tell you 
that, having been raised in Las Vegas, I know that area well, 
and I loved, as a kid, going to Red Rock Canyon and the Valley 
of Fire and the Grand Canyon. Of course, my children and I 
enjoy it as well. So this was not something that I just jumped 
on the bandwagon, because I do appreciate the issue of 
environmental sensitivity and preserving those natural wonders.
    I can also tell you that in the testimony, if I can 
emphasize the fact that in the last 17 weeks that I have served 
in Congress, I have had an opportunity to interact with people 
across the country that I have never had an opportunity to 
interact with before. When I tell them I am from Las Vegas, of 
course, that always creates some interest in people anyway, but 
I can tell you, almost to a person, when they tell me they have 
come to my district or they are planning a trip to Las Vegas, 
they invariably tell me about their time in the Grand Canyon 
and how they flew over the Grand Canyon, and how that was one 
of the highlights of their trip. I never appreciated it, since 
I am a local and I just took it for granted, how many of our 
tourists do come to southern Nevada in order to take that plane 
ride, take a helicopter ride, but mostly those plane rides with 
the tour companies to see the splendor of the Grand Canyon.
    Even as late as last evening, when I was at a reception 
that had absolutely nothing to do this, I met a gentleman from 
New York who told me that for his mother's 70th birthday, that 
was his gift to her, and it was the highlight of her life.
    So I am feeling very comfortable about my testimony and my 
position, and I know there are several other people here from 
my district that will testify as well.
    Mr. Romero-Barcelo. Thank you very much.
    Mr. Duncan. [presiding] Thank you. Mr. Vento?
    Mr. Vento. Well, thanks, Mr. Chairman.
    I appreciate your testimony. Obviously, the Park Service 
has followed the law passed in the 100th Congress which says 
that, ``no aircraft audible in the park at certain areas.'' 
They divided the park into apparently two zones. Apparently, 
what the concern here is about the zone which is about half the 
park, I guess--I don't know if it is quite half the park or 
not; it looks like it is less than that--but where there would 
be no audible noise for 75 percent of the time. So the issue 
is, you don't disagree with that goal, do you?
    Ms. Berkley. I think there are experts here that can talk 
about the actual noise levels, and I think they are going to be 
giving you a demonstration.
    Mr. Vento. No, I am just talking about the goal. Do you 
agree with the goal?
    Ms. Berkley. Yes.
    Mr. Vento. And so it isn't the question here what 
constitutes this. Now, obviously, if my colleague from Utah is 
correct in terms of less aircraft that are more quiet or 
engines that are obviously for power and safety and other 
reasons and administrative purposes, there are exceptions in 
this law that was passed. But I think that we can agree on the 
goal and it is just a question of what the effect is. If in 
fact, the Canyon, as an example, amplifies some of the noises, 
acts as a natural amplifier, that would be a concern. It is not 
just the noise that emanates from the internal combustion 
engine, or whatever is being used in this case, but it is the 
fact of how that is characterized.
    The laws of sound are pretty solid. I don't think that 
anyone has modified them just lately. In fact, most scientists 
will tell you that it is one of the few absolutes. Acoustical 
science itself, in terms of how it behaves, is a little more 
complex.
    Ms. Berkley. Although it is my understanding that evidence 
to the contrary suggests that the natural walls of the Grand 
Canyon act to not amplify the sound, but to buffer it.
    Mr. Vento. No, I know this. I read your testimony, but that 
depends on where you are standing, I expect. But that is the 
acoustical part of it, not the law of sound.
    In any case, we will be looking over it, but as long as we 
agree upon the goals here, then I think we will have to--you 
know, clearly when we were dealing with this initially, it was 
aircraft below the rim or above the rim, what the height was. 
Safety factors are also important here. The Park Service, I 
think they have come along slowly--too slowly in my estimation. 
I think the real issue here, and I expect that what is 
happening, too, is that there is actually a growth in the 
number of these flights that have taken place from when this 
law was passed in 1988. I will have to ask the aircraft 
industry that. But I expect that more and more folks are 
enjoying it, and this might be one of the other issues.
    There are other factors just besides noise and safety; the 
distance between aircraft and a number of other factors, as I 
recall when we were dealing with this, that were important.
    I thank the chairman.
    Ms. Berkley. I would like to beg your indulgence. I have a 
group of students from Las Vegas waiting in my office for me.
    Mr. Duncan. You go right ahead. I was just going to say, 
Ms. Berkley, that Chairman Hansen and I held a joint hearing on 
this a couple of years ago in St. George, Utah, and we got into 
all of this. But then they took us on a flight across the Grand 
Canyon, and it was really a real highlight of our trip out 
there. In fact, because of time constraints, we would not have 
seen that if we had not done it in that way.
    We want to thank you very much for coming to testify, and 
you are certainly excused to go on to your other duties.
    Ms. Berkley. Thank you. My greatest concern is that the 
regulations would be so onerous that it would lead to the 
elimination of this very important component of the tourism 
industry.
    Mr. Duncan. Thank you very much.
    We will now call up the first panel, and we have a very 
distinguished panel. We have Ms. Jackie Lowey, who is the 
Deputy Director of the National Park Service. We have my 
friend, Mr. David Traynham, who is the Assistant Administrator 
for Policy, Planning, and International Aviation with the 
Federal Aviation Administration. We have Mr. John Alberti, who 
is with JR Engineering, and Mr. Alan R. Stephen, who is 
president of Twin Otter International, Ltd.
    What we do is to proceed in the order in which the 
witnesses are listed on the call of the hearing, and that means 
that, Ms. Lowey, we will begin with you, please.

   STATEMENT OF JACKIE LOWEY, DEPUTY DIRECTOR, NATIONAL PARK 
  SERVICE; ACCOMPANIED BY WES HENRY, RESEARCH ADMINISTRATOR, 
 NATIONAL PARK SERVICE, AND ROBERT ARNBERGER, SUPERINTENDENT, 
                   GRAND CANYON NATIONAL PARK

    Ms. Lowey. Thank you. It is good to see you again. I was at 
that hearing in Utah. Let me first say I was pleased to listen 
to the last words that Congresswoman Berkley said because I 
think that where we are is not inconsistent with that at all. 
We continue to believe that there is a balance that is 
possible.
    As you know, the statutory mission of the National Park 
Service is to preserve this Nation's natural and cultural 
resources unimpaired for future generations. In the case of 
Grand Canyon, I think there is no disagreement here, as 
Congressman Vento pointed out, that the mission, particularly 
as it relates to the Overflights Act, includes protecting the 
natural quiet or the natural sounds of the park.
    Specifically, in the Act Congress passed, Congress said, 
and I quote, ``noise associated with aircraft overflights at 
Grand Canyon is causing a significant adverse effect on natural 
quiet and the experience of the park.'' So we have a clear 
mandate with the FAA to achieve a goal. I think what has been a 
question among many is the implementation of that law in terms 
of how we measure our progress in achieving the goal that is 
clear.
    The Park Service and the FAA continue to work together as 
partners on a rulemaking process to achieve the goal of 
substantial restoration of natural quiet, which has been 
defined by the Park Service as 50 percent of the park being 
quiet 75 percent or more of the day. The U.S. Court of Appeals 
for the District of Columbia, in 1998, upheld that definition 
of substantial restoration of natural quiet.
    The Park Service, in cooperation with the FAA, continues to 
work on the administrative implementation of the Overflights 
Act. We anticipate that a new rule, along with new flight 
routes, will be fully implemented by the summer of 2000. As 
part of this rulemaking process, we have made refinements to 
the methodology we will use to evaluate progress toward the 
achievement of the goal. I am pleased to discuss those with you 
today, and, I think, have an opportunity to clarify what are 
some misconceptions about that.
    First, let me say, to know when half the park is quiet 75 
percent of the time, we have to know what that quiet means. The 
natural sounds of the park, from the Colorado River, from 
animals, to the wind, make up the natural sounds of the park, 
or the natural quiet of the park, which is not quiet at all. We 
have to determine these natural ambient sound levels because 
they are an essential factor in determining whether noises are 
audible. Second, we have to determine when noise from 
overflying aircraft is going to reach the point that natural 
quiet is disturbed or, conversely, when it is restored.
    The first modification that we have made is in a refinement 
to the calculations of the natural ambient or baseline natural 
sound levels of the park. With the size of Grand Canyon and its 
highly varied terrain and vegetation patterns, we have found 
that no single acoustic level adequately reflects the range of 
natural sounds present. To more accurately portray the range of 
natural sounds present, we have established a series of natural 
ambient zones, each representing a level of sound that is 
natural quiet for that part of the park.
    Initially, we based our natural ambient acoustic zones just 
on vegetation communities as the single best predictor of 
acoustic conditions. More recently, we have recognized that, 
while these three initial zones do account for the vast 
majority of the park, they do not account for the variation by 
what is the major natural sound producer in the center of the 
park, the Colorado River. So we have added two new ambient 
acoustic zones. The first, called the ``Colorado River 
Rapids,'' is for the natural river noise is great. The second 
is for what we label ``water-affected'' areas, that is, areas 
with perennial running water. In sum, we now have five natural 
ambient sound zones to characterize the park into 
scientifically meaningful, data-based acoustic units, each with 
a different level of natural quiet.
    The second change we have made in our methodology has to do 
with when we and the FAA determine that noise from overflying 
aircraft will reach a level that quiet is disturbed. The FAA 
has considerable expertise at measuring the impact of aircraft 
noise. However, most of their expertise and most of their 
experience has been in modeling the impact of that noise around 
airports in urban cities, which, as a New Yorker, I can say is 
something that is quite different than Grand Canyon. Therefore, 
the National Park Service and the FAA have spent years working 
together to adapt the modeling that they have to make it more 
appropriate for a park environment.
    In the 1994 report to Congress that the National Park 
Service issued, when we first proposed the definition of 
natural quiet in Grand Canyon, we said that it should be no 
aircraft audible. That was a single standard to apply equally 
throughout the park.
    Now, in the notice that we have put out, we are proposing 
to move to a dual-zone standard to use in different parts of 
the park, two different standards for evaluating the impact of 
aircraft noise. In certain areas of the park, we will use a 
noticeability standard--the noise threshold at which one who is 
actively engaged in other things notices noise. It is what has 
been used in previous FAA rulemakings on Grand Canyon. In other 
areas of the park, we will use an audibility standard--the 
noise threshold at which an attentive listener can hear noise.
    We are proposing to use the noticeability standard for an 
area that we have designated as zone 1, and the audibility 
standard as an area we have designated as zone 2, and I believe 
we have provided--I would be happy to provide for the Committee 
a map of those two different zones. But, in short, zone 1 
contains approximately one-third of the park's area: the 
developed areas along the south rim, the much smaller developed 
area along the north rim, the Marble Canyon area, the Sanup 
area below Whitmore Rapids, and zone 2 constitutes the large 
continuous core of the park.
    We believe that by using these different approaches in 
different areas of the park, we can get the most accurate 
picture possible as a way to measure the presence and impact of 
aircraft noise on the park, taking into account different 
resources and uses that occur in different areas.
    Let me be clear that what we are talking about is assessing 
aircraft noise. What we are not saying--and I think there has 
been quite a bit of misunderstanding about this--we are not 
saying that aircraft will be barred from those areas if they 
cannot achieve that level of sound. We are saying this is the 
most accurate way to just get a picture of what the actual 
cumulativel sound is in the park.
    We are going to continue to present this information in a 
public forum and work to get the best possible scientific 
information possible. I think that science is clearly something 
where you continue to improve, you continue to get more 
precise, and we believe that, by implementing both of these, we 
have done that. We will continue to welcome the active 
participation of all interested parties; there are many 
affected--Native American tribes; there are the American 
people; there are the air tour operators, and the environmental 
community. We do believe that balance is possible and that we 
can move forward and support a healthy air tour industry and 
preserve precious resources.
    With that, I open myself to any questions or yield to the 
gentleman.
    [The prepared statement of Ms. Lowey follows:]

Statement of Jacqueline Lowey, Deputy Director, National Park Service, 
                       Department of The Interior

    Thank you for the opportunity to discuss our efforts to 
substantially restore ``natural quiet'' at Grand Canyon 
National Park. As you know, the statutory mission of the 
National Park Service is to preserve the natural and cultural 
resources of National Parks unimpaired for future generations. 
In the case of Grand Canyon National Park, there is no 
disagreement that this mission includes protecting the natural 
quiet or the natural sounds of the park, and that aircraft 
overflights have an impact on that resource. Congress 
recognized this in Public Law 100-91, commonly known as the 
``Overflights Act,'' when it said ``noise associated with 
aircraft overflights at the Grand Canyon National Park is 
causing a significant adverse effect on the natural quiet and 
experience of the park.'' The Overflights Act gave the National 
Park Service and the Federal Aviation Administration a mandate 
to achieve a ``substantial restoration of natural quiet'' in 
the park. A key question in the implementation of that law is 
how we measure our progress in achieving that goal.
    The National Park Service and the FAA are continuing to 
work as partners on a rulemaking process to achieve the goal of 
substantial restoration of natural quiet, which has been 
defined by the NPS as 50 percent of the park being quiet 75 
percent of the day. This definition was included by the FAA in 
the rules promulgated in 1996 under the Overflights Act. In 
response to suits brought by the air tour industry, 
environmental groups, and a Native American Tribe, the United 
States Court of Appeals for the District of Columbia in 1998 
upheld this definition of substantial restoration of natural 
quiet. The National Park Service, in cooperation with the FAA, 
is continuing to work on the administrative implementation of 
the Overflights Act. We anticipate that a new rule, along with 
new flight routes, will be fully implemented by the summer of 
2000. As part of this rulemaking process, we have made 
refinements to the methodology we will use to evaluate progress 
toward the achievement of substantial restoration of natural 
quiet. I am pleased to have the opportunity to discuss these 
refinements with the Subcommittee today.
    To know when half of the park is quiet 75 percent of the 
time, we have to know what ``natural quiet'' means. There 
obviously are natural sounds in the park, from such sources as 
the Colorado River, the wind, and animals, that are part of the 
park's natural quiet. We have to determine the natural ambient 
sound levels because the characteristics of that ambient sound 
are an essential factor in determining whether other noises are 
audible. Second, we have to determine when noise from 
overflying aircraft is going to reach the point that natural 
quiet is disturbed or, conversely, when we have achieved a 
substantial restoration of natural quiet.
    We have made refinements in our methodology on both 
factors.
    First, the NPS has refined its calculations of the natural 
ambient or baseline natural sound levels of the park. With the 
size of Grand Canyon National Park and its highly varied 
terrain and vegetation patterns, we have found that no single 
acoustic level adequately reflects the range of natural sounds 
present. To more accurately portray the range of natural sounds 
present, we have established a series of natural ambient zones, 
each representing a level of sound that is the natural quiet 
for that part of the park.
    Initially, we based our natural ambient acoustic zones just 
on vegetation communities, as the best single predictor of 
acoustic conditions. This is largely for two reasons: (1) 
because wind passing through the foliage is one of the primary 
sound producers, the type and amount of foliage in that 
vegetation community provides a strong indicator of the sound 
levels present there; and (2) vegetation communities are also 
good indicators of the types of animals, birds, and insects 
likely to be present and the sounds that they may produce. 
Accordingly, we developed acoustic zoning that followed the 
three major vegetation communities present in the park: (1) 
desert scrub; (2) pinyon-juniper woodlands: and (3) sparse 
conifer forest, each with a specific level of sound that is 
equated with natural quiet.
    More recently, we have recognized that while these initial 
three zones account for the vast majority of the park's area, 
they do not account for the variation caused by what is the 
major natural sound producer in the center of the park, the 
Colorado River. And, like the park itself, the river too, is 
acoustically complex. It contains world-class whitewater 
reaches that are connected by often quite lengthy relatively 
flat stretches between the rapids. In the immediate area of the 
major falls and rapids the sound levels seem almost thunderous 
while in the connecting reaches the relative stillness is just 
as impressive. So to better characterize the natural quiet in 
the proximity of the river, we have added two new ambient 
acoustic zones. The first, called the ``Colorado River 
Rapids,'' is for areas where the natural river noise is great. 
The second is for what we label ``water-affected'' areas, that 
is, areas with perennial running water but outside the 
previously described ``Colorado River Rapids'' areas.
    In sum, we now have five natural ambient sound zones, to 
characterize the park into scientifically meaningful, data-
based acoustic units, each with a different level of natural 
quiet. These new zones add a degree of precision to our 
modeling that had previously not been possible. We strive to 
constantly improve our information and our science. We think 
the new ambient categorization does that.
    The second change we have made in our methodology has to do 
with when we and the FAA determine that noise from overflying 
aircraft will reach the level that natural quiet is disturbed. 
The FAA has considerable expertise at measuring the impact of 
aircraft noise; however, most of their experience has been in 
measuring the impact of flights over urban areas near airports. 
Therefore, the NPS and the FAA have spent several years working 
on adapting existing models to make them more appropriate for 
use in a national park setting.
    Initially, in the 1994 report to Congress mandated by the 
Overflights Act, the National Park Service proposed that 
natural quiet in Grand Canyon National Park should mean that 
there are ``no aircraft audible'' in the park. This was a 
single standard, to apply equally through the park.
    Now, we have moved to a dual zone approach, to use in 
different parts of the park two different standards for 
evaluating the impact of aircraft noise. In certain areas of 
the park, we will use a ``noticeability'' standard--the noise 
threshold at which one who is actively engaged in other things 
``notices'' noise. It is what has been used in previous FAA 
regulatory actions on Grand Canyon overflights. In other areas 
of the park we will use an ``audibility'' standard--the noise 
threshold at which an attentive listener can actually ``hear'' 
noise. The noticeability standard allows for more noise before 
natural quiet is considered ``disturbed,'' the audibility 
standard allows for less noise.
    We are proposing to use the noticeability standard for the 
area we have designated as zone 1, and the audibility standard 
for the area we have designated as zone 2.
    Zone 1 contains approximately one-third of the park's area. 
It contains the developed area along the south rim, the much 
smaller developed area along the North rim, the Marble Canyon 
Area, and the Sanup area below Whitmore Rapids. The developed 
areas on each rim are zoned for relatively high visitor and 
park support uses; noise levels are higher in these relatively 
high use areas. Zone 2 constitutes the large, continuous core 
of the park. We believe that using these different approaches 
in the different areas of the park is the most accurate way to 
measure the presence and impact of aircraft noise on the park, 
taking into account the different resources and uses that occur 
in the different areas of the park.
    We believe that the cumulative effect of these two 
refinements--natural ambient sound zoning and the dual noise 
standard zones--is to get an accurate portrayal of acoustic 
conditions in Grand Canyon National Park so that we can achieve 
our Congressional mandate of substantial restoration of natural 
quiet. We will continue to present this information and 
analysis through various public processes and we will continue 
to work to get the best possible scientific information 
available.
    We welcome the active participation of all interested 
parties--affected Indian Tribes, the air tour industry, 
environmental organizations, and the American people. It is a 
great challenge, but I do believe that balance is possible and 
that we can protect the park's precious resources, respect 
tribal lands, and continue to support a healthy air tour 
industry.
    This concludes my testimony, I would be happy to answer any 
of your questions.

    Mr. Duncan. Thank you very much, Ms. Lowey.
    Next we will hear from Mr. Traynham.

   STATEMENT OF DAVID TRAYNHAM, ASSISTANT ADMINISTRATOR FOR 
 POLICY, PLANNING AND INTERNATIONAL AVIATION, FEDERAL AVIATION 
     ADMINISTRATION; THOMAS CONNNOR, OFFICE OF ENERGY AND 
          ENVIRONMENT, FEDERAL AVIATION ADMINISTRATION

    Mr. Traynham. Thank you, Mr. Chairman and Members of the 
Subcommittee. It is a pleasure to appear before you today to 
discuss the FAA's role in working with the National Park 
Service to achieve substantial restoration of natural quiet at 
the Grand Canyon. I would like to express our appreciation for 
your continued leadership concerning national park overflights 
and reiterate our commitment to working with the Park Service 
and the Congress to reduce the impact of aircraft overflights 
on all of our national parks.
    My testimony today will focus on FAA's part in using the 
revised NPS methodology to do this. We have worked closely with 
the Park Service over the past few years to balance various 
commercial and governmental interests within the parameters of 
our specific mandates and jurisdictions. We are cooperatively 
developing policies, rules, and processes that preserve, to the 
extent practicable, the natural resources without compromising 
aviation safety.
    The FAA and the National Park Service have two distinct 
missions: Federal law and Congressional policy mandate that the 
authority to control air traffic over our Nation's air space 
resides solely with the FAA, while the Park Service is charged 
with the management of the natural and cultural resources and 
values of the national park system. I believe that we have 
proven over the past few years that, although these missions 
are separate and distinct, they are not necessarily 
incompatible.
    Together we have developed a process to manage the impact 
of aircraft overflights to the national park system. This 
process is simple. National Park Service sets standards for 
noise levels in our national parks and the FAA integrates these 
standards into our regulation of the airspace. Within this 
framework, the National Park Service consults with the FAA on 
developing further actions to aid the substantial restoration 
of natural quiet, as well as planning for the development of 
comprehensive noise management plan for air tour operations 
over the Grand Canyon. For our part, the FAA offers advice and 
expertise on aircraft noise. This system has proven effective 
both in preserving our distinct missions and in progressing 
steadily toward natural quiet goals.
    As you know, the Park Service has made a number of 
revisions to its noise standards and policies. In particular, 
in January of this year, the Park Service published its new 
Dual Noise Standard in The Federal Register as a new basis for 
evaluating restoration of natural quiet in the Grand Canyon. 
The new standard reflects whether a person is actively 
listening for aircraft or not, and other factors based on land 
use, visitor activity, and geography.
    In addition, as Deputy Director Lowey has testified, the 
National Park Service has modified the use of average natural 
ambient sound levels for a noise impact threshold with a two-
zone system: one for higher noise sensitivity and one for lower 
noise sensitivity. This will more precisely reflect the 
acoustic conditions of the park.
    The FAA plans to issue a Notice of Proposed Rulemaking soon 
that will modify existing regulations governing aircraft 
flights over the Grand Canyon. The NPRM will reflect the 
changes in the National Park Service's policies. It will make 
use of the Integrated Noise Model. This is the FAA's standard 
computer methodology for assessing and predicting aircraft 
noise impacts. This mode is a computer program that predicts 
aircraft noise exposure. When certain types of information are 
input into the program, such as number of flights during the 
day and the types of planes making those flights, the model can 
produce information on the noise that those flights will 
generate. This has been used at approximately 400 airports in 
the United States, as well as another 200 or so overseas, and 
it has been found to be a very accurate predictor of noise 
impacts.
    The FAA has continually refined and updated the computer 
program to reflect advances in acoustic science and the 
accurate evaluation of unique regional environments. In line 
with this, the FAA produced a modified version of the INM to 
provide specific data appropriate to aircraft noise conditions 
in the Grand Canyon. This data will then be used to assess the 
noise exposure implications of the actions proposed in our 
upcoming NPRM.
    At this juncture, the FAA has not yet completed the NPRM, 
and therefore, it is premature to discuss the specific details. 
However, the FAA has committed to promulgating fair and 
equitable rules regarding aircraft operations, and as always, 
our highest priority is safety. Our NPRM will ensure the 
highest level of aviation safety possible while following the 
National Park Service guidelines and policies.
    We believe that together the NPS and the FAA are well on 
the way to achieving our common goal of substantial restoration 
of natural quiet in the Grand Canyon, as well as other national 
parks, without eliminating safe access by the air. It has been, 
and will continue to be, our policy in managing the navigable 
airspace over these natural treasures to exercise leadership in 
achieving an appropriate balance between efficiency, 
technological practicability, and environmental concerns, while 
maintaining the highest level of safety.
    I thank you again for the opportunity to appear before you 
this morning. This concludes my prepared statement, Mr. 
Chairman, and I would be pleased to answer any questions when 
we get to that point.
    [The prepared statement of Mr. Traynham follows:]

  Statement of David F. Traynham, Assistant Administrator for Policy, 
 Planning, and International Aviation, Federal Aviation Administration

    Mr. Chairman and Members of the Committee:
    It is a pleasure to appear before you today to discuss the 
Federal Aviation Administration's (FAA) role in working with 
the National Park Service (NPS) to achieve the substantial 
restoration of natural quiet in Grand Canyon National Park 
(GCNP). I would like to express our appreciation for your 
continued leadership concerning national park overflights and 
reiterate our commitment to working with NPS and the Congress 
to reduce the impact of aircraft overflights on our national 
parks. My testimony today will focus on FAA's part in using the 
revised NPS methodology to achieve statutorily required 
restoration of natural quiet.
    This Administration has committed significant time and 
effort to developing specific plans to restore natural quiet to 
the GCNP and to formulating a national policy and process to 
manage aircraft overflights over national parks across the 
country. In developing this policy, the Administration has 
taken care to balance the interests of the numerous groups 
affected by rules concerning overflights. Many park visitors 
and those whose duty it is to preserve park resources are 
concerned about aircraft noise over park lands. Those charged 
with aviation safety are concerned about effectively managing 
the airspace. Those who provide access to park resources from 
the air offer a unique and unparalleled way to view the parks, 
and are, of course, interested in continuing these operations. 
And, in the case of western parks especially, Native American 
cultural and historical properties are affected by flights over 
or near park land.
    We have worked closely with NPS over the past few years to 
balance these various interests within the parameters of each 
of our specific mandates and jurisdictions, cooperatively 
developing policies, rules, and processes that preserve, to the 
extent practicable, the natural resources without compromising 
aviation safety. The FAA and NPS have two distinct missions: 
Federal law and Congressional policy mandate that the authority 
to control air traffic over our nation's airspace resides 
solely with the FAA, while the NPS is charged with the 
management of the natural and cultural resources and values of 
the national park system. I believe that we have proven over 
the past few years that although these missions are separate 
and distinct, they are not necessarily incompatible.
    Together, we have developed a process to manage the impact 
of aircraft overflights to the national park system: NPS sets 
standards for noise levels in our national parks and the FAA 
integrates these standards into our regulation of aircraft and 
airspace. Within this procedure, NPS consults with the FAA on 
developing further actions to aid the substantial restoration 
of natural quiet, as well as planning for the development of a 
comprehensive noise management plan for air tour operations 
over GCNP. For our part, the FAA offers advice and expertise on 
aircraft noise. This system has proven effective both in 
preserving our distinct missions and in progressing steadily 
towards the goal of substantially restoring natural quiet over 
GCNP.
    As you know, NPS has made a number of revisions to its 
noise standards and policies. In particular, in January of this 
year, the NPS published its new ``Dual Noise Standard'' in the 
Federal Register, 64 Fed. Reg. 3969 (January 26, 1999), as the 
new basis for evaluating restoration of natural quiet in the 
GCNP. The new standard reflects whether a person is actively 
listening for aircraft or not, and other factors based on land 
use, visitor activity, and geography. In addition, as NPS 
Deputy Director Lowey has testified, the NPS has modified the 
use of average natural ambient sound levels for a noise impact 
threshold with a two-zone system, one for higher noise 
sensitivity and one for lower noise sensitivity. This will more 
precisely reflect the acoustic conditions of the park.
    The FAA plans to issue a Notice of Proposed Rulemaking 
(NPRM) soon that will modify existing regulations governing 
aircraft flights over the GCNP. The NPRM will reflect these 
changes in the NPS policies. It will make use of the FAA's 
standard computer methodology for assessing and predicting 
aircraft noise impacts, the Integrated Noise Model (INM). To 
put it simply, the INM is a computer program that predicts 
aircraft noise exposure. That is, when certain types of 
information are input into the program, such as the number of 
flights during a day and the types of planes making those 
flights, the INM can produce information on the noise that 
those flights will generate.
    The FAA has continually refined and updated the INM's 
system capabilities, aircraft noise and performance data, and 
computer technology, to reflect advances in acoustic science 
and the accurate evaluation of unique regional environments. In 
line with this, the FAA produced a modified version of the INM 
to provide specific data appropriate to aircraft noise 
conditions in the GCNP. This data will then be used to assess 
the noise exposure implications of the actions proposed in the 
upcoming NPRM.
    The FAA uses INM because of: (1) its widespread scientific 
acceptance; (2) its use of methodology that conforms to 
industry and international standards; (3) its measurement-
derived noise and performance data; (4) its ability to 
calculate noise exposure over varying terrain elevation; and 
(5) its adaptability and reliability for assessing a variety of 
situations, including noise impacts on park lands. This is the 
type of computer modeling that supports the assessment of land 
use compatibility and the restoration of natural quiet. The INM 
uses specific measures of noise for these assessments. The data 
is analyzed to determine what changes may be needed to air 
traffic management in order to achieve particular goals in 
noise management.
    At this juncture, the FAA has not yet completed our 
analysis, and therefore, it is premature to discuss the 
specific details of the upcoming NPRM. However, the FAA is 
committed to promulgating fair and equitable rules regarding 
aircraft operations. And, as always, our highest priority is 
aviation safety. Our NPRM will ensure the highest level of 
aviation safety possible while following the NPS' guidelines, 
policies, and standards for achieving the substantial 
restoration of natural quiet in the GCNP and other national 
park lands.
    We believe that together the NPS and the FAA are well on 
the way to achieving our common goal of substantial restoration 
of natural quiet in the GCNP and other national parks, without 
eliminating safe access by air. It has been and will continue 
to be our policy, in managing the navigable airspace over these 
natural treasures, to exercise leadership in achieving an 
appropriate balance between efficiency, technological 
practicability, and environmental concerns, while maintaining 
the highest level of safety.
    Thank you for the opportunity to appear before you this 
morning. This concludes my prepared statement, Mr. Chairman, 
and I would be pleased to answer any questions you and members 
of the Committee may have.

    Mr. Duncan. Thank you very much, Mr. Traynham.
    My next witness is Mr. John Alberti of JR Engineering. Mr. 
Alberti?

        STATEMENT OF JOHN ALBERTI, OWNER, JR ENGINEERING

    Mr. Alberti. Thank you, Honorable Chairman and members, and 
thank you for inviting me back. My name is John Alberti; I am 
the owner of JR Engineering. I am a big advocate of quiet in 
the Grand Canyon as well. I got involved in this working with 
Papillon Grand Canyon Helicopters to develop an ultra quiet 
helicopter for air tour use. I am also a big fan of dealing 
honestly and accurately with acoustics and of not moving the 
regulatory goal post around, which is why we are here today.
    Last September, we discussed the 1994 NPS Report to 
Congress, revealed serious flaws in that report and 
demonstrated, contrary to NPS claims then and this morning, 
that substantial restoration of natural quiet had, in fact, 
occurred under SFAR-50-2. Measurements sponsored by the NPS in 
1992 confirmed that. That data is presented in my Attachment 
No. 1.
    Today, the NPS wants to change the ground rules by which 
natural quiet is defined. They wish to substitute the 
``detectability'' for ``noticeability.'' ``Noticeability'' 
occurs when a disinterested observer, such as a hiker pausing 
to observe the view, becomes aware of the sound of an aircraft. 
That is taken to occur three decibels above the background 
ambient sound level. That has been the basis for current 
studies and current court decisions, including the one referred 
to by Ms. Lowey today.
    ``Detectability'' occurs when an observer who is actively 
listening for and straining to hear aircraft is just able to 
detect it. The notice

proposes that that occurs 8dB(A) below background ambient 
noise. Thus, the direct effect is to lower the threshold by 
11dB(A). The effect of this will be that any tour aircraft 
operating near the Grand Canyon would exceed that threshold, as 
would airliners, including quiet stage three airliners up to 40 
miles away.
    In the notice, the NPS cites additional information 
available to them which justifies this. We have reviewed the 
report that they provided--it was prepared by Harris, Miller, 
Miller and Hanson--and this is not true. That report provides 
no new data, no new measurements, no new observations, and no 
substantiation for a political desire to change the ground 
rules. What it does do is it does some arithmetic on some old 
measurements to convert from one measurement of signal-to-noise 
ratio called d-prime to signal-to-noise ratio measured in terms 
of dB(A), that produces some absurd results; for example, that 
an aircraft at 5.6 dB(A) would be detectable, never mind that 
the entire spectrum falls below the threshold of human hearing 
at every frequency. Yet no time did any observer detect 
aircraft at anything near these sound levels. In fact, the 
detectability criterion was based on detections by vigilant 
observers in the canyon at an average threshold level of 30 
dB(A). Our analysis, in fact, of NPS data leads to 29 dB(A) as 
a conservative threshold of noticeability; that is what we 
recommend.
    Moving ahead now to the HMMH study; if you turn to page 4, 
table 1, this shows the actual sound levels of the spectra that 
were used in this analysis.
    You have four ambient levels, ranging from 17 to 46 dB(A), 
and you have eight different aircraft--the quietest of which 
was at 29.6 dB(A) when detected. What happened was they simply 
subtracted from these aircraft sound levels until they got 
predetermined values of d-prime and dB(A). There was no sound 
measurements, no observations, just arithmetic.
    If you turn to figure 1 on page 5, you can see the result 
of this. This is an example at Hermit Basin where the ambient 
is 17.1 dB(A). All A-aircraft spectra were adjusted to 9.1 
dB(A), exactly 8 dB(A) below that, in accordance with the 
proposal. Supposedly, these are audible by that standard. In 
fact, they all lie at or below the threshold of human hearing 
for young observers under ideal conditions. You can't hear 
these; more important, you can't measure these. You cannot 
measure a sound that is 8 dB(A) below the ambient. I do 
aircraft noise certification for the FAA for a living. If I 
turned in data like this, the FAA would still be laughing. Yet 
they are prepared to accept this data as a basis for noise 
regulations that will put the air tour industry out of business 
and affect air commerce from general aviation to airliners.
    But more to the point, these manipulations of data do not 
even address the central issue; that is, should a noise 
regulation be based upon noticeability to protect ordinary 
visitors to the canyon, who have no vested interest in aircraft 
noise one way or the other? Or should it be based on 
detectability to prevent an activist who goes there just to 
listen for aircraft from being able to detect them? I think the 
answer is perfectly obvious.
    I see I have just run out of time. I hope you will read my 
recommendations in the written testimony. And at the 
appropriate time, I would like to raise some questions about 
some of the testimony of the government witnesses.
    And I thank you very much.
    [The prepared statement of Mr. Alberti follows:]

    [GRAPHIC] [TIFF OMITTED] T8698.006
    
    [GRAPHIC] [TIFF OMITTED] T8698.007
    
    [GRAPHIC] [TIFF OMITTED] T8698.008
    
    [GRAPHIC] [TIFF OMITTED] T8698.009
    
    [GRAPHIC] [TIFF OMITTED] T8698.010
    
    [GRAPHIC] [TIFF OMITTED] T8698.011
    
    [GRAPHIC] [TIFF OMITTED] T8698.012
    
    [GRAPHIC] [TIFF OMITTED] T8698.013
    
    [GRAPHIC] [TIFF OMITTED] T8698.014
    
    [GRAPHIC] [TIFF OMITTED] T8698.015
    
    [GRAPHIC] [TIFF OMITTED] T8698.016
    
    Mr. Duncan. All right; thank you very much, Mr. Alberti.
    Mr. Stephen.

      STATEMENT OF ALAN R. STEPHEN, PRESIDENT, TWIN OTTER 
                      INTERNATIONAL, INC.

    Mr Stephen. Thank you, Mr. Chairman. I need to kind of 
explain why my testimony says Twin Otter International and my 
name tag says Grand Canyon. Actually, I wear a lot of different 
hats. Twin Otter International is the producer of the 
Vistaliner, which is a quiet air tour airplane. There are 22 
Vistaliners in service at the Scenic Grand Canyon Airlines 
that, at the Grand Canyon, carry about 35 percent of all the 
air tour passengers. The airplane meets a proposed category C 
quiet aircraft standard. I am also an officer of Grand Canyon 
Airlines, which operates the Vistaliner.
    Mr. Vento, I go back to a meeting with you in 1986 and 
appearing when you were chairman in support of the 1987 
legislation, and I have been intimately involved as chief 
executive of Scenic Airlines until we sold the air tour 
business, focused on the Vistaliner.
    I also served as a member of the 9-member National Park 
Overflight Working Group which met over about a 15-month 
period. There were nine of us; it was at times contiguous. It 
was always lively. We were successful in making unanimous 
recommendations to the Secretaries of Interior and 
Transportation on how to regulate overflight of the air tour 
aircraft over our national parks, which is in legislation now 
before the House and the Senate, and we urge your passage of 
that legislation. It is fair; it retains FAA's primary role to 
regulate the airspace and minimize the impact of air tours on 
ground visitors in our national parks.
    I have to go back to that 1987 legislation and really what 
was at work there, as we had a very large volume--an unaccepted 
volume--of visitor complaints over aircraft activity at Grand 
Canyon. And, too, there was--after the mid-air collision, there 
was concern over safety. That 1987 legislation has been 
spectacularly successful in those two regards. The air tour 
industry is much safer today because of the special airspace 
regulation. And visitor complaints, which were averaging over 
1,000 a year on 2.5 million visitors at Grand Canyon in that 
timeframe, have declined down over the last couple of years--
and I don't have the latest numbers, but it is in the 2 to 3 
dozen visitor complaints over aircraft sound at Grand Canyon--2 
to 3 dozen out of 5 million visitors a year. And to my 
knowledge, we can't track whether those complaints are air 
tour-related, overflight of the major jet airway, or related to 
the Park Service helicopter flight operations at Grand Canyon.
    All of the time we met, not once did the Park Service offer 
its definition for review. Everything was on the table during 
the National Park Overflight Working Group deliberations. We 
looked into the legal ramifications of FAA regulating in this 
way and the liable concerns, and so forth and so on. And some 
of us felt, frankly, betrayed when I saw a number that is 
ambient--a threshold of natural quiet is ambient minus 8 dB. 
Unfortunately, I am not an acoustics expert, and somebody like 
John Lobirdy has to give me advice on it, but I have been told 
it is such a low threshold that it is like listening to your 
blood circulating.
    One thing we did agree on in the National Park Overflight 
Working Group unanimously was that there needed, as part of any 
regulation of our air tour industry, that there must be a 
recognition of quiet aircraft and what that can do to reduce 
the intrusion of aircraft sound on ground visitors at the Grand 
Canyon and other national parks. And we--and as in your 
legislation--stated that there must be incentives for aircraft 
to be converted to quiet aircraft, and those incentives should 
include, but be not limited to, preferred altitudes and routes 
and relief from curfews and caps.
    Unfortunately, we have talked about it and talked about it. 
We have support from the FAA, and some of the National Park 
Service, from the environmental community, from the air tour 
industry. And as we sit, not one single incentive has been 
offered at Grand Canyon or anywhere else in the United States 
to my knowledge. I just had a chance to look at a preview of 
the new rule that the FAA is offering on making operational 
caps along with aircraft caps and curfews, and there is, again, 
not one word of incentive on quiet aircraft, and will be 
subject to the same caps as conventional aircraft.
    And I want to just make the pitch real simply as the 
following--because quiet aircraft is expensive, and so the 
airplanes have to be larger. Larger capacity airplanes mean two 
things. One, if they are quiet, they, in all probability, make 
less sound, therefore, less noticeable to ground visitors. And, 
two, is they replace multiple flights. A 19-seat Vistaliner 
replaces 2 air tour flights by the 9-seat Cessna 402 and 3 
flights by the single-engine Cessna 206, which has 5 
passengers. And it makes plenty of sense to have these 
incentives, and I encourage this Committee to help us bring to 
this final rule some meaningful incentives for quiet aircraft.
    I appreciate the opportunity to appear, and I will be happy 
to answer your questions.
    [The prepared statement of Mr. Stephen follows:]

    [GRAPHIC] [TIFF OMITTED] T8698.017
    
    [GRAPHIC] [TIFF OMITTED] T8698.018
    
    [GRAPHIC] [TIFF OMITTED] T8698.019
    
    [GRAPHIC] [TIFF OMITTED] T8698.020
    
    [GRAPHIC] [TIFF OMITTED] T8698.021
    
    [GRAPHIC] [TIFF OMITTED] T8698.022
    
    Mr. Duncan. Thank you very much, Mr. Stephen.
    We will go first to Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. And I will 
tell you, I think this is one of the most elitist, nonsensical 
arguments that I have ever seen come before this Committee with 
this bureaucracy.
    Mrs. Lowey, I am going to ask everybody in this room to be 
quiet, and I am going to establish the natural sound level of 
this room. And I want you to demonstrate to this Committee what 
8 decibels below the natural ambient sound level of this 
Committee is.
    Ms. Lowey. Sir, let me just say that----
    Mr. Gibbons. Can you do that?
    Ms. Lowey. Can I--can I--I am sorry--can I----
    Mr. Gibbons. Can you demonstrate----
    Ms. Lowey. [continuing] demonstrate?
    Mr. Gibbons. [continuing] what 8 decibels below the ambient 
sound level of this room is?
    Ms. Lowey. In order to measure 8 below ambient, I'd have to 
first model, or measure the ambient. The question is confusing 
because qwe used the 8 db below ambient threshold to measure 
the point at which one can hear aircraft noise the way you are 
using it Mr. Gibbons.
    Ms. Lowey. I think that that has to do with the model, sir. 
The way you plug it in----
    Mr. Gibbons. Well, don't----
    Ms. Lowey. [continuing] if you--it is a----
    Mr. Gibbons. Don't give me this. Just tell me, can you do 
that today for this room? If we have everybody be quiet to 
establish a zero base noise level in this room, can you 
demonstrate what 8 decibels below that is?
    Ms. Lowey. Yes, sir, because--if I could give you back an 
example; If you have a orchestra, the ambient sound of the 
orchestra, you can still hear a piccolo playing. Why is it that 
you can pick out the piccolo when you are listening to the 
orchestra? It is because the piccolo has a different frequency 
than other instruments. That is the nature of sound.
    Mr. Gibbons. So, in that model, if you have a canyon with a 
river running and an airplane flying over it, you can still 
hear the river running?
    Ms. Lowey. Sometimes. But the issue, sir, has to do with 
the way various models calculate noise impact. Whenwe were 
making the conversion from a Park Service model, which is how 
we started, which was one that had a false frequency, to an FAA 
model, which I am not a scientist, but I can tell you is A-
weighted, which is an average sound. We had to make adjustments 
to calculate audibility. The Park Service muiltifrequency model 
was designed to do that, the FAA model was not.
    Mr. Gibbons. Well, can you----
    Ms. Lowey. Taht's how you come up with 8 dB below ambient. 
It is the range that best respresents audibility.
    Mr. Gibbons. Can you measure the 8 decibels below?
    Ms. Lowey. Sir, I don't have a machine here, but that can 
be done, certainly.
    Mr. Gibbons. So it would have to be a machine out there to 
measure every decibel level?
    Ms. Lowey. I have to say to you, sir, Grand Canyon is a 
quiet place. It is quieter than this Committee room. Every bit 
of the sound there--the ambient sounds--have been measured and 
validated and proven.
    Mr. Gibbons. Well, if it quieter than this room, then there 
is----
    Ms. Lowey. It is quieter than this room.
    Mr. Gibbons. [continuing] nothing in the Grand Canyon that 
ever comes near it, that is going to establish this level.
    Let me go to Mr. Traynham over here.
    Can any aircraft meet a minus 8 decibel-level in that area?
    Mr. Traynham. We think there will be significant parts of 
the park using this new standard that will be able to be 
overflown by tour operators.
    So, yes.
    Mr. Gibbons. And meet the 8 decibel level, below ambient 
standard?
    Mr. Traynham. When you are looking at the 8-decibel 
standard, it is what the visitor hears. It is not what the 
aircraft is generating in a noise sense.
    But, in our proposed rule, we contemplate major parts of 
the park being overflown by overflows.
    Mr. Gibbons. Well, if that is the case, what you are 
telling us is you are going to do is move all the aircraft to 
where all the people are to make all the noise in one area, and 
then at which time you will say, `` This is way too much, and 
we are going to reduce the air flights over all of the park 
because of this noise level.''
    If that is the intent, then I think you are misrepresenting 
this whole purpose here today.
    Mr. Alberti?
    Mr. Alberti. Yes?
    Mr. Gibbons. Can a minus 8 decibels be measured?
    Mr. Alberti. You can--a person may be able to pick out the 
piccolo, as Ms. Lowey says. That is correct.
    The thing is, you cannot measure a sound level of an 
aircraft that is 8 dB below the ambient. You have to infer it; 
you have to estimate it; you have to measure the sound when the 
aircraft is much louder and then assume that it will still have 
the same spectrum shape, never mind that it is in a different 
position, at a different distance, different angle, different 
conditions. You have to guess. You cannot accurately measure--
--
    Mr. Gibbons. So how could they establish that? And if 
somehow it was violated----
    Mr. Alberti. Well, that is----
    Mr. Gibbons. [continuing] what would be the penalty?
    Mr. Alberti. That is a good question, which I guess I would 
pose to them.
    When an observer says, ``I can just hear that aircraft,'' 
and pushes his button, I guess it is a fair question. How do 
you know that aircraft was 8 dB(A) below the ambient?
    I think you have--I think the answer will be that there is 
a great deal of guesswork in that. It is not a direct 
measurement.
    Mr. Gibbons. Mr. Traynham, if you are going to modify VFR 
flights over the Grand Canyon for tour operators, I suppose 
that comes under part 91?
    Is it your requirement that every VFR flight plan be filed 
at that point?
    Mr. Traynham. No, sir. What the model is being used for is 
to develop policies, routes, flights--you know, how many 
flights are going to be flying that will generate a certain 
noise contour in the park.
    We are not going to be measuring each flight to see whether 
it meets a certain decible level. This exercise on the model is 
to, basically, generate a map that routes would be established 
that would then be flown by the tour operators.
    Mr. Gibbons. But you are not going to force all the tour 
flights over the populated areas of the park--the high-noise 
areas?
    Mr. Traynham. No, sir.
    Mr Stephen. Mr. Gibbons, could I comment on this----
    Mr. Gibbons. Yes.
    Mr Stephen. [continuing] as an air tour flight?
    There is two things here that we have to look at. And when 
we put the visitor in the equation, and we saw the problem--
visitors are not hearing air tour airplanes. Now we are putting 
in noise for noise sake.
    And let me give you two orwellian-type conclusions you have 
got to draw. The north rim of the Grand Canyon over which we 
fly--Grand Canyon Airlines; that is our route--is closed seven 
months of the year, due to impassable snow. And, yet, in one of 
the route proposals that is floating around, they would make 
the air tour flights go farther north, north of the park 
boundaries and stay out of the park. I don't know where that 
logic comes. And as an airline pilot, you know one of the major 
east-west jet airways overflies the entire 277-mile length of 
the Grand Canyon. The FAA is contemplating eliminating the 
vital Las Vegas to Grand Canyon tour route which is so 
important to tourism in southern Nevada, forcing the airplanes 
that fly that to go south of the park boundary by 10 to 12 
miles. So once the air tour flights out of Las Vegas going to 
Grand Canyon are no longer flying over the national park, do we 
have natural quiet, as defined?
    The answer is, ``No,'' because every single air carrier, 
general aviation, and military airplane that is on that 
overflight airway is making sound that is detectable under this 
definition.
    I don't understand this.
    Mr. Gibbons. Mr. Chairman, thank you very much. I have got 
a number of additional questions. This is a truly frustrating 
exercise, if you ask me.
    Mr. Duncan. We will come back to you, Mr. Gibbons.
    Mr. Vento.
    Mr. Vento. Well, thanks, Mr. Chairman. I had earlier 
referenced a question about the number of overflights of the 
Grand Canyon for tourism purposes. Obviously, we are not trying 
to deal with the commercial or the military airspace issue.
    In any case, what has been the history since 1987 when the 
law was passed? Has it decreased the number of visitors flying 
over the park?
    Ms. Lowey?
    Ms. Lowey. There has been an exponential increase. I 
believe it is two to three times the magnitude there right now.
    Mr. Vento. Number of persons in perhaps larger aircraft?
    Ms. Lowey. For visitation, I have the superintendent who 
could probably give visitation numbers better than I could.
    Mr. Vento. Well, you might want to do that for the record--
--
    Ms. Lowey. But--yes----
    Mr. Vento. [continuing] but I think that the issue is that 
more and more persons are enjoying----
    Ms. Lowey. Right.
    Mr. Vento. [continuing] this particular experience, I 
guess. And so that means the frequency of flights, I guess, 
where their helicopter, fixed wing, or whatever, have increased 
as well, so that the interval between the flights is not as 
great as once might have been. Is that correct?
    Ms. Lowey. Absolutely. There has been an exponential 
increase in air tours over the park.
    Mr. Vento. I mean unless they have increased these--I mean 
I understand the aircraft sizes have also increased. Is that 
correct?
    Ms. Lowey. Yes.
    Mr. Vento. And, of course, no one is--I mean anything that 
we are talking about here has to deal with safety under some 
circumstances. But when you talk about the 8 decibels below the 
ambient, that is that there is normal noise within the canyon, 
and in--do I understand right, that you are saying that one-
third of the canyon area will not be subject to that----
    Ms. Lowey. Correct.
    Mr. Vento. [continuing] 8 decibels below?
    Ms. Lowey. Correct.
    Mr. Vento. So that will be, in other words, in over those 
areas, there will be an acceptance of a----
    Ms. Lowey. A higher level--essentially a higher level of 
noise.
    Mr. Vento. So I mean--so that would still--and can you give 
me some idea of how many aircraft were anticipated in this 
proposed rule? I don't know, someone said you were changing the 
rule, but there is no adoption of the rule yet, I guess, so I 
guess it is appropriate to reframe it.
    But how many aircraft fly over that third that is not 
within this new standard that is being contested, I guess? How 
many aircraft fly in that area?
    Ms. Lowey. If I can, sir, just explain one thing which I 
think is important to clarify.
    We are not saying that in the area which we are proposing 
to measure according to the ambient minus 8 standard, that 
unless aircrafts meet that standard, they won't be able to fly 
there. Tghis methodolgy does not zone it in terms of--you can 
fly here or you can't fly there. It is a method to measure 
noise.
    What we are doing is saying in some of the most sensitive 
areas of the park, you can hear noise at that threshold. It is 
a threshold; it is not really a standard, and perhaps we 
confuse it in calling it that. And I say this again, in 
response to the questions asked earlier--we have measured that 
again. indeed one can hear aircrasft at 8 db below the ambient. 
You can hear it. Audibility is an objective standard. You can 
hear it when you you talk about the noticeability standard, you 
are talking about a nonobjective standard. You are talking 
about--at what point do people notice noise, if they are doing 
other things. Audibility is a more objective calculation.
    Mr. Vento. So you can't measure it exactly from the 
aircraft--plane, itself, in terms of what 8 decibels below it 
would be; it is a question of what is happening on the ground. 
Of course, I was always told that, as I said the professor 
here--or the physicist here----
    [Laughter.]
    [continuing] that is testifying in opposition to the 
proposed rule, that the laws of sound, nobody--as far as I 
know--nobody has modified those laws of sound, but the 
acoustics becomes more of an art than a science.
    I guess probably you would contest that, as an engineer, 
Dr. Alberti?
    Mr. Alberti. Whether it is an art or a science, I won't 
even touch it.
    [Laughter.]
    But I think that the measurements to determine what the 
threshold of audibility is--that is detectability by somebody 
actively trying to hear a sound--those experiments were done at 
an average threshold level of 30 decibels. Now, as I understand 
it, in two-thirds of the park, the threshold will now be 12 dB. 
That is--I think they are proposing 20 dB for grassland areas 
and 8 dB below that, which would be 12 dB(A). Nobody is 
detecting sounds at that level. That is down near the threshold 
of human hearing.
    This is a case where it is sort of an ambush by degrees. We 
start out by selecting the ambient noise measurements--only the 
quietest ambient noise measurements--so we can get a nice low 
noise level there. And then we go back and we take some 
detections that occurred at much higher sound levels. We take 
that set of noise measurements----
    Mr. Vento. But I think some of this depends upon where you 
are, in terms of what you are experiencing. In other words, it 
also depends upon--I mean it obviously is a floating standard 
because the ambient level, in terms, obviously, have to be 
established for various parts of the park. In one place, you 
may have trees and winds and, you know, you may have waterfalls 
or rapids which are making more noise--rock slides----
    [Laughter.]
    [continuing] I don't know what else. Hummingbirds, you 
know, cicadas, you know, so there is a lot of different things 
that can contribute to that. So it isn't--I mean it is, 
obviously, you would have to combine this. That is why they are 
using. Now, as I understand, that this particular model that is 
being used, is an INS model; is that right? Have I got that 
right? The integrated noise system?
    Mr. Traynham. Integrated noise model----
    Mr. Vento. Yes, so this is used broadly.
    Mr. Traynham. [continuing] the INM.
    Mr. Vento. I mean this is not something that is only being 
applied here. I mean there has been a lot more--if you think 
this is a hot argument about noise, you ought to go to some of 
the suburban neighborhoods in Minneapolis-St. Paul. In fact, 
even the Committee here has got into trying to help me out in 
that particular venture, with regards to the Minnesota----
    [Laughter.]
    [continuing] Refuge.
    Ms. Lowey, did you have any--I want to especially welcome 
David Traynham, who is a long-time staff, Mr. Chairman, as you 
know, on the Committee, and was instrumental in working with 
our Committee, in terms of this law in 1987, I guess, now. So I 
welcome, David, good to see you and pleased with your role and 
performance in this new task.
    Did you have further comments, Ms. Lowey?
    Ms. Lowey. No.
    Mr. Vento. I just, you know--I hope that we can work it 
through. It is, you know, I guess one of the reasons that we 
don't get involved in writing the rules and regulations here, 
although I would be happy to do it, Mr. Chairman, if that is 
all I had to do. You know, I would be--but it is good to see 
you working on it, and I certainly will take into consideration 
the comments. But the point is, that I think that this 
experience, in terms, has been growing greatly, and there is 
nothing wrong with that, and there is nothing wrong with 
business and people enjoying this. I don't, you know--but I 
hope that we can--I think there is some misunderstanding about 
what is being pursued here and, hopefully, you can work it out 
because this isn't absolute quiet as I think some had feared it 
might be.
    Mr Stephen. Could I respond to your question? Would you 
have time?
    Mr. Vento. With the indulgence of the chairman, I have 
overstated by time.
    [Laughter.]
    Mr Stephen. Can I give a--I think this----
    Mr. Duncan. Go ahead, Mr. Stephen.
    Mr Stephen. Okay--is Scenic Airlines had a peak year in 
1981 of 211,000 passengers, and due to the international 
economy tanking in during the early years of the Reagan 
Administration, then, rebuilding. We went down to 93,000 
passenger in 1994--excuse me--1984, in 1981 and 1984. And so, 
1986 is not exactly a great year, or 1987, as a baseline year. 
So you have to look back further. So when you hear the word 
``exponential,'' it is not the truth.
    In that timeframe, we flew Cessna 402's. We had 40 of them 
for 211,000 passengers going to the Grand Canyon out of Las 
Vegas. We had seven Vistaliners in service in 1987, and we 
carried 139,000 passengers. Going forward, we went up to a 
total of 18 Vistaliners. But what has happened in the last 
couple of years is there has been massive consolidation in the 
Las Vegas/Grand Canyon tour market. There is one company 
today--it is called Scenic Airlines--which operates 4 F-27's at 
40 passengers and 18 Vistaliners. And it is our successor 
company, after we sold the air tour business. That is the 
consolidation of the Las Vegas Airlines, Air Nevada, and Eagle 
Canyons. And, in that consolidation, alone, nearly 40 Cessna 
402's that were in service 2 years ago are out of the Grand 
Canyon. So there are less flights. And I don't think the 
history that is being presented is actually accurate either, if 
you look at the 20-year history or look at what is really 
happening in the nature of the tour business at Grand Canyon.
    And, frankly--as you remember, sir--we felt that the 
overflight legislation was good for the business, and that was 
why we supported it.
    Mr. Vento. You know I think--I appreciate that, but there 
ought to be some common understanding about the numbers here 
which shouldn't be, you know--so that we could pin it down to 
understand what the growth is. This isn't really about the 
growth, in any case; it is about the noise.
    Mr. Chairman, one statement I noted that came through--
perhaps there is some misunderstanding about it, but my 
understanding is that the flight paths over the Grand Canyon 
are all already identified, so it isn't just free, you know, 
you have to have that planned, and there are certain areas 
already where you cannot fly over the Grand Canyon. So the idea 
that they were somehow going to be condensed by virtue of this 
new--this proposed rule, which is being implemented, would 
really follow the existing--that there are existing corridors 
where you can fly over, and flight plans would have to be 
established already. So this would not be something new.
    Now, one might argue that that has some problems with the 
enjoyability or with the safety or with other factors, but I 
assume that most of that had been taken into consideration. And 
that there is less frequency for the bigger aircraft, or what 
the circumstances are, I don't know--but we should be able to 
agree upon the number of aircraft. We may not agree upon what 
the measurement of this acoustical art is, Mr. Chairman.
    But I think if I am incorrect, I would hope somebody would 
correct me. If not, thank you, Mr. Chairman.
    Again, I appreciate it.
    Mr. Duncan. Well, thank you; thank you very much.
    This is at least the fourth or fifth hearing that I have 
participated in on this issue, and it has always been very 
interesting to me. And I thought that--I know last year we had 
a group that everybody started out pretty far apart, and I 
thought we had worked and come together and reached a 
compromise that was pretty acceptable to almost everyone. And 
that is the way I like to do things, and so I was pleased about 
that. And I can tell you that I have never liked noise or loud 
noises. I don't even like to have a television on in another 
room when I am reading in the next room. So I thought that, you 
know, we should try to work on this as much as possible.
    On the other hand, I don't suppose on any issue, you can 
ever satisfy the extremists. And I have been amazed in all 
these hearings, that how few complaints there are, Mr. Stephen. 
You mentioned 2 or 3 dozens out of 5 million visitors. I have 
said before and I still think this, that I am amazed that some 
of these groups can't stir up more complaints than that, 
because we have had this issue around for several years, and I 
have just been amazed at how few complaints there are about the 
noise there at the Grand Canyon.
    But, Mr. Alberti, let me ask you this; you mentioned that 
some of these levels are outside the range of human hearing. 
And I am not sure--I am not a scientist or a technician--would 
you describe for me what is 8 decibels below ambient? What is 
ambient, in this situation? What does that mean? And what are 
we talking about here? What would be the noise level of, say, a 
typical, quiet suburb, that is not near an airport, let's say, 
and does not have heavy traffic? Or what would be the noise 
level of someone who is hiking through the Grand Canyon, 
stepping on leaves or twigs? Do you have some examples like 
that that you can give to me?
    Mr. Alberti. Yes. As far as a quiet suburb, actually the 
EPA has set up 55 dB(A) as a desirable goal for residential 
communities. Probably pretty typical of what you would find in 
a quiet suburb. You might get down to maybe 50 or so when there 
is not much traffic.
    In this room, while we are talking, we are probably up in 
the 70-plus dB(A) range. If we all stop talking, it might drop 
into the, maybe, the 40's, possibly.
    Mr. Duncan. When we all stop talking and we are quiet, like 
Mr. Gibbons tried to get everybody a while ago, that is about a 
40?
    Mr. Alberti. I think something in that ballpark. I think we 
will have some discussion on that later, actually.
    Mr. Duncan. And so the level we are trying to get to in the 
park is 8 decibels below ambient?
    Mr. Alberti. That is correct, if I understand. That is the 
proposal.
    Mr. Duncan. Well, what would be the--I know there are a 
great many commercial airliners that fly across the Grand 
Canyon, because I have been on commercial planes myself, you 
know, and the pilots will always announce the Grand Canyon is 
down below us. What--can you hear those flights in the park 
or----
    Mr. Alberti. Oh, yes. Observers have noted that. Some of 
the people that the Park Service hired noted rather a high 
percentage of the time that they could hear commercial 
aircraft, you know, 10 or 20 percent of the time.
    Mr. Duncan. How high would those flights have to go before 
you wouldn't hear those?
    Mr. Alberti. Well, about 180,000 feet.
    [Laughter.]
    No, about 40 miles. A slant range is for a MD-80, which is 
a very popular Stage 3 aircraft that flies in and out Phoenix 
regularly. That is the--the slant range has to be about 40 
miles for that aircraft, to meet the 12 dB limit that is being 
proposed here.
    Mr. Duncan. What did you mean at the start of your 
testimony when you said that they are moving these regulatory 
guideposts around? Are they changing the--do you feel like they 
have been changing the standards----
    Mr. Alberti. Yes.
    Mr. Duncan. [continuing] in all of this?
    Mr. Alberti. All of the regulations that have been made to 
date, have been based on noticeability 3 dB(A) above the 
ambient. The court case in 1998 that I think Ms. Lowey referred 
to, refers specifically to noticeability 3 dB(A) above ambient. 
That has been the de facto standard in the canyon in recent 
years. So this is a change from that. It is an attempt to lower 
that standard by 11 dB(A). I have yet to hear any 
substantiation for it, except a desire to do it.
    Mr. Duncan. And so--I have noticed over the years in 
chairing the Aviation Subcommittee that people who live near 
airports develop almost super-human hearing and sometimes 
complain about sounds that aren't there.
    But what we are talking about, if you had 100 people who 
weren't noise experts and who didn't go into the park with the 
goal of hearing something, as opposed to people who are going 
in with machinery and trying to hear every sound that they can 
hear from an aircraft, what is the difference here? I mean 
would the group--if we surveyed the group of 100 people who 
went into the park, do you think that they would notice these 
overflights?
    Mr. Alberti. The majority would not, and, in fact, the 
majority do not. I think 66 percent of the people who were 
actually asked that question said they didn't recall noticing 
aircraft.
    As to the sound level, we looked at NPS data. We took the 
quietest 25 percent of the cases where aircraft were actually 
detected and determined that the ambient, at that time, was 
about 26 dB(A)--it was a rather conservative approach we took; 
3 dB(A) above that is 29 dB(A). We proposed that as a standard 
for natural quiet in the park. The notice proposes 8 dB(A) 
above ambient, and now there is some additional information 
been presented which suggests that that ambient should be 20 
dB(A) over about two-thirds of the park. So we get down to 12 
dB(A), down where most people can't even hear it.
    I think it is interesting that the database from which that 
20 dB(A) came from--there were 23 different sites where 
observers went down and measured the sound. The average value 
of the ambient sound at those 23 sites was 34 dB(A). But 
somehow, by a selection process that I don't pretend to 
understand, we come up with an average of 20 dB(A).
    And I have seen this over and over in Grand Canyon National 
Park, where there is a careful picking of which ambient sound 
measurements are going to be used. We saw measurements taken in 
the spring thrown out because the wind blows too much in the 
spring, and so we have only used fall measurements. Over and 
over, we see the ambient being ``cherry-picked'' down to very, 
very low levels. And then we turn around and use a standard of 
8 dB below that which only a person who is straining to hear 
aircraft would respond to, and you get down to really absurd 
sound levels. And then on top of that, we look at the INM 
model, which is not the INM model that is used at the 400 
airports, under FAA regulation under parts 150 and 161, but a 
modified version of it that produces higher noise levels 
because they took out the lateral attenuation and because there 
are corrections made for--speed corrections for helicopters 
that add noise instead of subtract it, as the helicopter noise 
model indicates--you know, all the things that we discussed 
last fall.
    You would now have an overstatement of the noise, and 
understatement of the ambient, and then a standard that goes 8 
dB below that. And, bit by bit, you have produced an absurd 
result--a standard that no one can reasonably meet, and, in 
fact, even airliners 40 miles away can't meet.
    Mr. Duncan. I have gone over my time, but, Mr. Stephen, let 
me ask you this; what effect, if they go to this 8 decibels 
below ambient, what effect would that have on your business?
    Mr Stephen. In and of itself, that standard is a standard; 
it is picked, whether it is right, wrong, or something 
different. It is what regulations emanate from that, and as the 
last couple of years, on the east-end of the canyon where Grand 
Canyon Airlines flies, we have now curfews that aren't related 
to true daylight. I mean it is not even time to change the 
curfew hours to the--it is on a date certain as opposed to 
daylight savings change. We are looking at a cap on operations. 
We are looking at modified routes which would add costs because 
it would make us go outside the park, a longer tour route, 
bringing us over a higher terrain more subject to weather. So, 
at what point does this stop?
    And what is very interesting here is that these are only 
interim measures that I just talked about. There is still out 
there both the comprehensive noise management model.
    And I don't know at what point these restrictions just 
really detract from the ability to provide a good tour and be a 
profitable business. But, obviously, a threshold of audibility 
minus 8 dB is a very tough standard, and it could be used to 
justify any restriction that the Park Service believes is 
necessary.
    Mr. Duncan. All right; thank you.
    Mr. Gibbons, you had an additional question or two.
    Mr. Gibbons. Yes, Mr. Chairman, I think a great deal has 
been said to sort of disprove a lot of the intent here.
    But I want to ask Ms. Lowey how they came to change from 34 
dB(A) down to 20 dB(A)?
    Ms. Lowey. Let me first say that the folks that work for me 
have reviewed Mr. Alberti's report and think that there is a 
misinterpretation of our data, and I can ask them to speak 
directly to that question.
    Let me ask Wes Henry to discuss that question.
    Mr. Henry. Mr. Chairman, I am not an acoustician; I 
wouldn't pretend to be.
    Mr. Gibbons. Would you identify yourself, for the record, 
and your academic background?
    Mr. Henry. I am Wes Henry; I am with the National Park 
Service. My doctorate is in natural resources. I am a research 
administrator for the Park Service.
    We have under contract probably some of the top acoustics 
firms in the country, and they happen to disagree with Mr. 
Alberti. I asked them to review the report, and they did with 
what they had with the information they had. And they suggested 
that there may be a number of reasons why Mr. Alberti is 
getting different results.
    The first is the possible misinterpretation of the original 
BBN report that they reviewed. And they said--even HMMR 
contractors said it was very difficult to work their way 
through the original BBN report. It was misleading. The data in 
there is actually aircraft plus ambient, not just aircraft 
noise, and that leads you to the wrong conclusions about the 
ambient levels. And they suggested that this might be the 
reason for this misinterpretation. There is not--you know, it 
is just a simple misinterpretation, that if Alberti had talked 
to BBN, they might have straightened that one out.
    We also found out that at that time, BBN was not using the 
low-noise microphones that are being used now. In other words, 
maybe BBN was measuring the floor of the instrumentation of 
those standard microphones. They weren't measuring the accurate 
numbers to start with.
    The Alberti--the JR Engineering reports models differently 
than the FAA. They only looked at part of the canyon. They 
excluded all the Las Vegas to Tucson traffic, which is the 
noisiest part of all the routes in the park. They left their 
ground attenuation feature on, and I can't pretend to get in 
between Mr. Alberti and the FAA, but the FAA authorities have 
assured us that by switching off that attenuation feature, they 
were getting their results much more aligned to the actual 
ground data. That is what I--that is in my report.
    And the last thing is, if you spread the impact of a 12-
hour--all the impact you get on a 12-hour day, which is when 
the aircraft are flying, and you spread that over a 24-hour 
time period, it looks like a lot less impact.
    So when you start to combine all those features together, 
you could easily come out with some very different answers.
    Mr. Gibbons. Mr. Alberti, your integrity has just been put 
into question.
    Do you want to respond to that?
    Mr. Alberti. Sure.
    Okay, there is quite a few different items. The 
attenuation--the lateral attenuation--actually there is a very 
good reason we didn't turn it off, because in the version of 
the INM that is available to the public that is used in every 
airport noise survey in the country, you cannot turn it off. 
This was--the FAA went in and modified the code--they happen to 
own the code--and changed the program in a way that no one else 
can. Now why, only in the Grand Canyon, is lateral attenuation 
not applicable, again, I will leave it to the FAA to explain. 
We used the program in the manner in which it is normally used, 
under FAA direction, and, in fact, the only way you can.
    As for the 12-hour versus 24-hour day, well, I guess I 
thought a day was 24 hours, but I won't quibble about that. The 
sound levels--we did, in fact, consider the fact that the 
measurements in the BBN report did include both the aircraft 
and the ambient. And, in fact, the actual observations of sound 
occurred at an average of 30 dB(A). We have inferred from that, 
given that the BBN reported a 1 dB signal-to-noise ratio, at 
detection, that the ambient was, therefore, 1 dB less or about 
29 dB(A). We took the quietest 25 percent of those cases, being 
actually more conservative than the Park Service in that 
regard, and came up with a ambient of 26 dB(A); 3 dB(A) above 
that is 29, and that is where we got that standard, so we 
certainly did account for that.
    And I can't remember if there were any other issues.
    Mr. Gibbons. Just one question, Mr. Chairman, if I may? I 
know my time is short here.
    Mr. Traynham, is there any airport in the United States 
that can meet this sort of a standard with a 8 dB(A) below 
ambient without the airport being there to begin with?
    Mr. Traynham. The short answer would be ``No.'' I think we 
need to keep in mind what we are using this model for. It is to 
construct routes and maps. It is not to be used to assess an 
individual aircraft or flight operation.
    Mr. Gibbons. Well, has the FAA ever found that noise has an 
effect on animals?
    Mr. Traynham. Noise studies show that there are impacts on 
humans and animals by aircraft noise.
    Mr. Gibbons. Well then, in every reserve, every wildlife 
reserve, we should be establishing refuge in wildlife refuge, 
we should be establishing a 12 dB(A) of noise level, which will 
go to my colleague over here at the Minneapolis-St. Paul 
problem, and we can surely work out the airport problems there 
over a wildlife refuge, with a minus 8 dB(A). I think if we set 
that standard, your proposal would be certainly allowable.
    But thank you, Mr. Chairman.
    Mr. Vento. Mr. Chairman----
    Mr. Hansen. [presiding] The gentleman from Minnesota.
    Mr. Vento. Well, I think that, obviously, if you are 
talking about an airport, it is a different ambient level than 
it might over the Grand Canyon.
    Mr. Gibbons. Well, if the gentleman will yield, we are 
talking about a wildlife preserve----
    Mr. Vento. Right.
    Mr. Gibbons. [continuing] versus a park. I mean they both 
have animals; they are both there for the enjoyment of the 
people.
    Mr. Vento. Yes.
    Mr. Gibbons. And we are setting standards for one that we 
wouldn't set for the other, and I am not sure where you would 
balance the two.
    Mr. Vento. Well, I think that, obviously, on that, on the 
issue with regards to Minnesota, the issue there, of course, 
was not affecting--it wasn't based on the fauna or flora; it 
was based on the interpretative and educational activities that 
went on and, of course, the airport was there. And so the 
ambient level, in terms of noise, would be, I think at an 
airport site, would be higher as opposed to these flights.
    But I think the question I just want to direct to Mr. 
Traynham is with regards to lateral attenuation and the concern 
about that--why that was deleted from this model, which is 
apparently a criticism of your IFN model?
    Mr. Traynham. I will need to call my noise expert to the 
witness table to respond to that directly.
    Mr. Vento. Well, we are interested and all; that is why we 
are doing this thing.
    Mr. Traynham. Tom Connor is with the Office of Energy and 
Environment at the FAA.
    Mr. Connor. The lateral attenuation is used in a model to 
assess the excess ground attenuation between the source and the 
observer on the ground. So between them, you have sound 
propagating, then you are assuming a ground surface that will 
refract, reflect, and absorb the sound.
    In the Grand Canyon we saw, well, that was not appropriate, 
because what we are dealing with is a big hole in the ground. 
There is hardly any ground between where the aircraft is and 
where the observer is. So, we said, ``Okay, for the Grand 
Canyon, it is appropriate to turn it off.'' And it is an effect 
that is really for low angles of elevations between the 
observer and the aircraft.
    Mr. Vento. So my question is, of course, and I guess the 
question of our colleagues, is what effect does that have on 
the model in terms of--in other words, this makes it more 
accurate? In other words, isn't that right, because it isn't a 
flat----
    Mr. Connor. That was the intent.
    Mr. Vento. It isn't a flat area; it is a very unusual 
geophysical feature, I guess, in the Earth's crust. So, the 
issue is that this actually--it isn't appropriate if you 
brought that in; it would be a less accurate measurement.
    Mr. Connor. That is right, because there isn't any ground, 
there can't be any excess ground attenuation.
    Mr. Vento. And so this makes it more accurate. If you 
actually treat it as though it were flat, then----
    Mr. Connor. Right.
    Mr. Vento. [continuing] the standards would be tougher, 
wouldn't they?
    Mr. Connor. That is right. That is what we saw.
    Mr. Vento. That is what you felt?
    Mr. Connor. Yes.
    Mr. Vento. So, you were going for accuracy here and, 
obviously, recognizing this as a, you know, sort of a pragmatic 
decision. You don't have other circumstances like that that the 
FAA uses. It is generally apparently for airports; is that 
right?--which are, last time I looked are pretty flat.
    Mr. Connor. That is right; yes.
    Mr. Vento. Thank you.
    Mr. Vento. I guess Mr. Alberti has a comment on that.
    Mr. Alberti?
    Mr. Alberti. Right. I believe the INM, in its normal mode, 
adjusts the lateral attenuation based on the elevation angle of 
the sound, so that if you were propagating sound into a hole, 
in fact, it would give you zero lateral attenuation. In other 
words, the accuracy mentioned is, in fact, built into the 
program. By turning it off, what you did was take away the 
program's ability to deal with situations, for example, the 
south and north rim where you are propagating much more 
horizontally, or propagation at long distances which you 
certainly get within the canyon, where the angle of the sound 
to the ground is smaller. So the effect of turning it off was 
not to increase the accuracy, it was to increase the noise 
levels.
    Mr. Vento. That is the effect, but that is what we are 
trying to measure the noise level within the hole. I mean, 
obviously, if you are just concerned about what the noise level 
would be at the rim level, that would obviously be--and you 
assume that there was no lateral attenuation--I mean you 
obviously would not be measuring, then, what is happening on 
the surface.
    Mr. Alberti. The INM--if you have an aircraft at some, 
let's say, 8,000 feet over the canyon; you have got the rim at, 
let's say, 6,000 feet. That would be a small propagation angle. 
There should be--there would be and should be attenuation 
produced by that INM. If you are measuring sound directly under 
that aircraft, 5,000 feet further down, the INM would not 
attach any lateral attenuation to that sound propagation in its 
normal mode. So this correction was unnecessary, and, in fact, 
it had the effect of taking away one of the features that the 
INM is supposed to have.
    Mr. Vento. Well I could understand where you would need it 
between the distance between the rim and the aircraft that you 
would need attenuation, but I understand below that, it has 
different--it behaves differently than it would if it were 
flat.
    But you say it already adjusts for that?
    Mr. Alberti. That is correct.
    Mr. Vento. And they are saying that it was inappropriate.
    Mr. Alberti. Right.
    Mr. Vento. So----
    Mr. Alberti. And it argues--we did, in fact, have the 
actual----
    Mr. Vento. This Committee is very interested in this. I 
hope we can get all this information, Mr. Chairman.
    [Laughter.]
    Mr. Hansen. [presiding] Well, I thank the gentleman from 
Minnesota.
    The gentleman from Tennessee.
    Mr. Duncan. Just one more thing; Ms. Lowey, I notice in 
your statement that you say the National Park Service and the 
FAA are continuing to work as partners on a rulemaking process 
to achieve the goal of substantial restoration of natural quiet 
which has been defined by the NPS as 50 percent of the park 
being quiet 75 percent of the day. And you say this definition 
was included by the FAA in the rules promulgated in 1996 over 
the Overflights Act. In response to suits and so forth, the 
United States Court of Appeals for the District of Columbia in 
1998 upheld this definition of substantial restoration of 
natural quiet.
    You refer favorably to that decision by the U.S. Court of 
Appeals in November of 1998. Have you read that decision?
    Ms. Lowey. Yes, I have.
    Mr. Duncan. So you know, then, that several times in that 
decision, the Court of Appeals describes as a reasonable 
definition of natural quiet, a level of ambient plus 3 
decibels?
    Ms. Lowey. Yes.
    Mr. Duncan. You do know that?
    Ms. Lowey. Yes. Yes; I would be happy to clarify that.
    Mr. Duncan. Yes, several times they refer to that as being 
a reasonable level of natural quiet. Yet, you are wanting to 
refer favorably to that decision in some parts, but then go to 
a standard that is much, much lower than that--much, much lower 
than what they describe as a reasonable level of natural quiet.
    Ms. Lowey. I have a couple of different things I would like 
to touch on.
    First, sir, our report to Congress in 1994 talked about the 
substantial restoration of natural quiet in terms of no 
aircraft audible. The National Park Service has been quite 
consistent in terms of talking about no aircraft audible as 
being a definition. And, in fact, as you will see also in the 
court decision, they talk about attentive listeners. They don't 
talk about noticeability; they talk about attentive listeners.
    The challenge has been in the movement between the NODS 
model, which is a multi-frequency model and the FAA model, 
which is A-weighted--and I am not a scientist, so I will give 
you the best layman's definition of thatI can--the A-weighted 
measurement is an averaging of sound it is not a representation 
of all of the different frequencies that comprise sound. We 
continue to move forward and improve our ability to most 
accurately assess audibility in our models. The National Park 
Service has been quite consistent in that.
    And so we think that where we are right now is quite 
consistent with the court decision, in light of the fact that 
we continue to have better refinements to our ability to define 
and to express audibility.
    Mr. Duncan. Well, let me say this; you know, I am, 
personally, am one who would like to make our entire society as 
quiet as possible, and I have been, over the last two or three 
years, one who has been trying to encourage the air tour 
industry to move in the direction of more quiet. And, yet, when 
I see that United States Court of Appeals has ruled that a 
level ambient plus 3 is a very reasonable definition of 
``natural quiet,'' and yet I hear the Park Service trying to 
get to a level of ambient minus 8--and I am not a scientist 
either--but it seems to me, I said earlier, that in all these 
issues, I will tell you, I have a wonderful relationship with 
the other side of the aisle in this Congress, almost everyone. 
And I have always tried, in every issue, to try to compromise 
and reach some middle ground level, just because it is my 
personality; I just don't like conflict and argument. But it 
seems to me that when you are--I mentioned earlier, that you 
just can't please the extremists on the ends of any issue, 
either the extremists on the far right or the extremists on the 
far left.
    And it seems to me that on this particular issue, the 
National Park Service has been taken over by extremists on this 
issue, because this--you are going to a range that Mr. Alberti 
said is below the range of ordinary human hearing. I mean it 
seems pretty obvious to me that anybody who wants to go to this 
standard is just wanting to ban all the planes flying over, 
regardless of what they might say. They can deny it to high 
heaven, but they are just wanting to ban all the flights over 
the parks.
    So what they should say is, ``This is what we want to do. 
We want to ban all the flights over the parks.'' Because, 
obviously, you are reaching to a standard that I don't believe 
can be achieved.
    Anyway, thank you very much, Mr. Chairman.
    Mr. Hansen. Thank you.
    The gentleman from Nevada, do you have further questions 
for this panel?
    I apologize to the panel and folks here, but I had no 
choice, and I am sure I missed a lot of good stuff that I would 
have liked to have heard in this thing.
    Let me ask Jackie Lowey a couple of questions if I may--and 
probably it has already been covered. And you have, of course, 
Mr. Superintendent sitting behind you if you need further help 
on this thing.
    Do you have any restrictions in that park on motorcycles?
    Ms. Lowey. I believe so.
    Rob, do you want to talk about the different restrictions?
    Mr. Hansen. Mr. Superintendent, if you would like to come 
up and identify yourself for the record.
    Mr. Arnberger. I am Robert Arnberger, superintendent of 
Grand Canyon National Park. I am pleased to be here and share 
the seat here.
    [Laughter.]
    Motorcycles are allowed in developed areas, just as are 
buses and cars and so forth, and there are no restrictions on 
motorcycles in those developed areas any more than there are 
restrictions on cars or buses.
    Mr. Hansen. Do you have any restriction on any cars, 
regarding the amount of decibels that you would hear on a car 
going through?
    Mr. Arnberger. Those cars only operate in those developed 
areas, and there are no restrictions.
    Mr. Hansen. What about a teenager playing his radio so loud 
that everybody within 500 yards can hear it?
    Mr. Arnberger. There is no regulation; however, a lot of 
times peer pressure on those overlooks when that happens, gets 
the radio turned off.
    Mr. Hansen. What are your restrictions on camping in 
certain areas?
    Mr. Arnberger. Well----
    Mr. Hansen. North rim, you have camping in----
    Mr. Arnberger. [continuing] we have regulations on 
different use areas and so forth.
    I would also point to you to the fact that, under the code 
of Federal regulations, there are regulations, for instance, on 
some noise limits. In the campground, for instance, there is a 
quiet hours limitation. At 10 o'clock at night in the 
campground, generators can't be turned on either. And so the 
code of Federal regulations does have some limitations as well 
on some of these noise levels, but they are specific 
applications within specific areas.
    Mr. Hansen. What about people that are hiking, say, down to 
Phantom Ranch and up one of the trails or the other. Do you 
have a restriction on the size of groups?
    Mr. Arnberger. We have a restriction on the number of 
people that can camp overnight. For the day-use hikers, there 
are no restrictions for those hikers. But for----
    Mr. Hansen. But if a 100 Boy Scouts wanted to go down to 
the Coconino, the Phantom Ranch, and up Bright Angel to the 
Kaibab, could they do it in one day? I mean I have done it in 
one day. I mean you would have no restrictions on that?
    Mr. Arnberger. We don't have any restrictions; however, we 
go out of our way, especially with groups such as that, to 
advise them that is not wise business. As witness to the fact, 
we have had several Boy Scout deaths over the last couple of 
years due to poor trip planning such as that.
    Mr. Hansen. What about the concessionaires who have mules 
and horses or that type of thing? Any restrictions on those 
folks?
    Mr. Arnberger. Yes, sir; there are. There is a number of 
mules per trip is limited. The size of the person riding the 
mule is limited. And the total number of overnighters that can 
spend the night down in Phantom on those mule trips is limited 
as well.
    Mr. Hansen. Are there any plans like we have at Zion to, 
say, from Jacob Lake, to run a type of bus or trolley or 
something in there and prohibit cars?
    Mr. Arnberger. Yes; the Grand Canyon is involved in an 
effort of mass and public transportation into the park, wishing 
to limit the number of vehicles into that park.
    Mr. Hansen. Mr. Stephen, I didn't get an opportunity to 
hear your testimony. You are president of the Twin Otter 
International Limited?
    Mr Stephen. That is correct.
    Mr. Hansen. And we are going back to the aircraft that we 
are talking about, used to be around for years and years?
    Mr Stephen. Yes. Twin Otter aircraft was manufactured in 
Canada was a very popular, regional airliner. We found it to be 
an adaptable airplane for the air tour business. We put in 
large, panoramic windows; we have an automated narration system 
so that our 90 percent of the passengers--Twin Otter was Scenic 
Airlines until we sold the Scenic air tour portion of the 
business in 1993. We had 15 different languages we could 
broadcast to individual passengers a narration in that language 
of choice of 8 different languages at one time.
    The Twin Otter also employed the quiet aircraft technology 
props which reduced our sound footprint by I believe about 60 
percent.
    Mr. Hansen. Correct me if I am wrong, but, as you pointed 
out, you make a special airplane for this type of thing--bigger 
windows and all that type of thing. What is the--what have you 
done on acoustical things, aside--far as your sound? What 
improvements have you made, or what are you doing?
    Mr Stephen. A major improvement is the employment of a 
four-bladed prop which has a shorter length of prop, which 
means the tip speed is much lower. And, too, as we--I am not a 
maintenance-type--but we adjusted and had engineered a prime 
blade angle change which allows us to cruise the airplane 
several hundred RPM slower than a non-modified Twin Otter. So 
not only is it a quieter prop, but also we have adjusted the 
prime blade angle.
    We have engineers that have told us we can actually reduce 
the sound of the Vistaliner even more by going into automated 
phasing over the props. You get sort of a slap when you do it 
manually. You can get props always totally in phase; creates a 
little more noise.
    But without adding any incentives to move forward, we 
already spent a million dollars to equip our 22 Vistaliners 
that are in service at Grand Canyon--little more than a million 
dollars. We have nothing to benefit from trying to make these 
investments and be good neighbors, and we want to be good 
neighbors. We want to fly where we don't impact visitors, and 
we want to fly in a neighborly way where we do impact visitors.
    Mr. Hansen. Have you worked with some of the 
concessionaires, the air tour groups, as you develop these 
aircraft? Have they given you suggestions on how to do it--like 
Sky West, people like that?
    Mr Stephen. Sky West acquired Scenic from us in 1993; that 
is who did.
    We have done all this ourselves internally. The concepts 
that are involved here, both from the manufacturers that are 
building new equipment and the concepts that we have in the 
Vistaliner, could be adapted to other aircraft models flying at 
Grand Canyon. But, again, if we can't get the utilization out 
of the airplanes, nobody can afford to make those changes.
    Mr. Hansen. What is your opinion of the recommendations of 
the National Park Service?
    Mr Stephen. Could you be more specific, sir?
    Mr. Hansen. I mean on the amount of sound, that type of 
thing that you probably heard testimony on.
    Mr Stephen. As I said earlier, it is how this is applied in 
the way of restrictions. I mean we see more and more 
restrictions, and at what point do we get a diminishing return?
    There is permanent bar to new entry; there is a cap on the 
number of airplanes that can be flown; there is soon to be a 
cap on the number of operations; they are eliminating air tour 
routes. I suggest, as you go down this line, you have to 
balance, in my view--our view, the consensus of our industry--
is, you know, an appropriate use of the airspace over the park 
for the enjoyment of nearly 800,000 people a year. And what 
impact would those 800,000, if a fraction of 100,000 of them 
decided to get to the remote areas of the park because they 
couldn't do a air tour; they decided to somehow take advantage 
of back-country visitation.
    To us, the issue is visitors, and when you have less than 
four dozen complaints a year from aircraft noise, I think we 
have achieved what the Congress intended when it passed a 
legislation in 1987.
    Mr. Hansen. Always hard to find that middle ground isn't 
it?
    Mr. Traynham, let me ask you, we are in kind of a basic, 
philosophical argument. What does the Parks do, and what do you 
do? I mean, in a way--this is an old pilot. I get really 
nervous having somebody on the ground tell me something that is 
in conflict with the FAA. I see this in the Parks. We are now 
seeing that on wilderness bills. We are now seeing it on areas 
of Forest Service.
    What can you prevent somebody from doing and not doing? I 
am a little concerned that the expertise of the FAA is being 
taken over by people who have great expertise on the ground, 
but I wonder if they have the expertise in the air. And I hope 
we can come to a middle ground.
    In those general terms, would you like to comment on any of 
that?
    Mr. Traynham. Yes, sir. As we said in our testimony, the 
Park Service and the FAA have been working together as partners 
in this exercise on the Grand Canyon.
    The FAA works with partners with many other types of 
entities on the ground as well. We have environmental 
responsibilities. Our first responsibility is the safety in the 
airspace. So, with the Grand Canyon, or like with any other 
entity, someone will make a proposal to make the flying over a 
particular area more environmentally sensitive. And we will 
look at those proposals, determine whether they have safety 
factored into them, are safe, and we will make changes in the 
airspace to be environmentally sensitive. We have redrawn 
routes in the New York and New Jersey area for that very 
reason. People have asked us to look at other changes in the 
New Jersey area to route flights out over the ocean. We have 
determined that sort of routing puts it in conflict with the 
multiple airports that are in that area. So we continue to 
exercise our expertise on the airspace and air traffic 
routings, but we do work with other agencies to be 
environmentally sensitive.
    Mr. Hansen. What is your opinion of the regulation that we 
now have over the Grand Canyon?
    Mr. Traynham. The current regulation on routings has done a 
lot to restore natural quiet to the park, as the Congress has 
directed be done.
    The Park Service has determined that more needs to be done 
to restore natural quiet the definition of ``natural quiet,'' 
and they are making proposals to us for routings. We are 
looking at them, discarding some of them, saying others would 
be okay.
    But we are regulating the airspace in the context of 
proposals being made to us for environmental reasons. We do 
that everyday in hundreds of places in this country, not just 
the Grand Canyon.
    Mr. Hansen. Well I sure applaud you on the safety thing. I 
remember distinctly when a United DC-7 and a TWA Constellation 
had a mid-air there. In fact, I guess they have hauled out most 
of that stuff, but back when I used to go down the river, there 
was this tail section of the ``Coney'' sitting at one place. In 
fact I have taken a number of pictures of it.
    What bothers me about the whole thing is that I am not just 
seeing it there, but this Committee has seen in it Forest 
Service and other areas, the military test and training ranges, 
and you know, somewhere we still got to exist.
    Mr. Traynham. There is no question that the FAA is ever-
increasingly being asked to look at air routings all over the 
country for environmental sensitivity. When you fly in from the 
north into National Airport here, you make about half a dozen 
turns on the river before you get to the airport. That is not 
an FAA-designed route, or the conceived route. We did design 
the route after it was suggested we need to fly down the river 
for environmental reasons, and we have designed a very safe 
route down the river. But years ago, FAA, left to its own 
devices, would not have designed that route like that, but we 
are responding to environmental sensitivities on noise.
    We are about to cross a milestone at the end of this year 
where the noisy Stage 2 aircraft will be totally phased out of 
the U.S. fleet. We still have environmental responsibilities 
after that because there are still lots of airport neighbors 
that are very much impacted by noise, so we will continue to 
work on this.
    Mr. Hansen. I appreciate the testimony of this panel. I am 
sorry that I wasn't here to hear your testimony. I will take 
the time to read it, however, and we will excuse this panel, if 
the gentleman from Nevada as no further questions.
    And we will turn to our second panel.
    Mr. Steve Bassett, president of United States Air Tour 
Association; Jacob Snow, assistant director, Clarke County 
Department of Aviation; and Roy Resavage, president of 
Helicopter Association International.
    I guess you folks all know the rules. If you can limit it 
to five minutes, we would appreciate it.
    Mr. Bassett, we will start with you, sir.

 STATEMENT OF STEVE BASSETT, PRESIDENT, UNITED STATES AIR TOUR 
                          ASSOCIATION

    Mr. Bassett. Thank you, Chairman Hansen and members of the 
Committee, for the opportunity to testify here today. I want to 
congratulate you for your continued leadership of this 
troubling issue and for your vigilance in seeking fair and 
equitable treatment for the air tour industry.
    The U.S. Air Tour Association represents 55 of the largest 
air tour operators and allied companies in the United States, 
including a coalition of airline and associated aviation 
companies that provide the majority of the Grand Canyon air 
tour services, both out of Las Vegas and Grand Canyon Airport 
in Arizona.
    The Agency's published intention to alter the definition of 
``natural quiet'' with an 8 decibel below natural ambient sound 
noise threshold in the vast majority of the Grand Canyon 
National Park, as we have heard, is once again appear to be 
based on voodoo science; ignores impact on 99 percent of the 
park visitors; seeks to protect quiet for quiet's sake; is yet 
another attempt to regulate airspace; circumvents any 
reasonable or rational attempt to work with the air tour 
industry to find an approach to this issue acceptable to all 
parties; appears neither consistent with Public Law 100-91, the 
stated policy of senior officials of the Department of 
Interior, may well exceed the statutory authority granted in 
the 1987 Overflights Act; will set a noise standard which will, 
ultimately, not only kill the Grand Canyon air tour industry, 
but establish a very dangerous precedent that will impact air 
touring throughout the United States.
    Now, Mr. Chairman, I have sat here for two hours; I guess 
we have to be careful of bureaucratic double-speak, and I have 
suddenly found myself very confused with much of what I heard.
    As for the April 23, 1999, letter to you, Chairman Hansen, 
from Grand Canyon National Park Superintendent Rob Arnberger, 
the Park Service would seemed to have us all believe that this 
new method of evaluating noise is not nearly as dire as it 
appears. They would have us believe that this two-zone concept 
is actually a good thing for the air tour industry because, 
while it may very well eliminate aircraft from the center of 
the park, it still provides an opportunity for these air tour 
aircraft to fly over another area of the Grand Canyon.
    What the Park Service has failed to clarify, however, for 
this Committee, is that the center of the park, approximately 
two-thirds of the park area, is where the fewest ground 
visitors are--approximately 18,000 per year out of 5 million, 
one-half of 1 percent. That is where the aircraft currently 
are; that is where the routing system currently has air tour 
aircraft; that is where they should be, if impact on visitors 
is the benchmark that we are seeking to achieve.
    The Park Service then suggests, however, that we can move 
aircraft to this other zone, this other zone where the standard 
noise threshold, or the definition of ``natural quiet'' doesn't 
change. Well, the practical result, Mr. Chairman, is that we 
seem to be headed in a direction whereby we will take the 
aircraft out of the area of the park where the fewest people 
are, and we will then modify the routes--at least as I read Mr. 
Arnberger's letter to you--we will modify the routes, perhaps 
in such a way that we put the aircraft over where the 
preponderance of the people are, along this area around the 
south rim.
    Now perhaps that is supposed to be good news for the air 
tour industry, because we have someplace to fly, but the 
practical result will be an enormous and justifiable increase 
in noise complaints----
    [Laughter.]
    [continuing] from all of the people that are visiting the 
park--well, more than 99 percent of the people visiting the 
park on the ground. And, then, that just sets us up for the 
next survey that occurs in six months, where they ask park 
visitors, ``Are they annoyed by aircraft sound?'' And, of 
course, the response will be, ``Yes, we are.'' And the next 
thing you know, there are further regulations to try and get us 
out of that one area.
    May I continue just for a moment?
    Thank you.
    Deception by the Park Service is not necessarily new when 
it comes to air touring. Grand Canyon air tour operators have 
been told repeatedly by Park Service officials over the years 
that the Agency supports air touring in the Grand Canyon and 
does not seek the Grand Canyon air tour operators out of 
business. It is just a very brief example of a decade of 
deception by the Park Service.
    Following the Overflights Act in 1987, William Horn, 
Assistant Secretary of the Interior, says of the Overflights 
Act, quote, ``Congress intended to provide for the use of 
sightseeing aircraft. Seeing the Grand Canyon from the air is 
enjoyed by many park visitors. The recommendations allow for 
air tours of 30 minutes or more that encompass spectacular 
portions of the Canyon.''
    A year later, SFAR 50-2 goes into effect.
    We have already heard, and I won't go through the details, 
of the successes of SFAR 50-2. And at last count, I heard we 
had 26 complaints registered out of 5 million visitors to the 
Grand Canyon. So by all standards and measurements, we achieved 
substantial restoration of natural quiet, based on the 1987 
Overflights Act. But, apparently, that wasn't good enough for 
the Park Service, so they continued to promulgate further 
regulations.
    We met with Director Stanton personally, the United States 
Air Tour Association Board of Directors. He assured us that it 
is not their intent to put the Grand Canyon air tour operators 
out of business. During the 17-month negotiation of the 
National Park Overflight Working Group, we were told the same 
thing by Park Service officials. At the USATA convention in 
Alaska last year, we were told exactly the same thing by Park 
Service officials. Yet every action the Park Service takes is 
contrary to their public pronouncements to us they are looking 
to ensure the viability of the Grand Canyon air tour industry.
    The Park Service may already have overstepped its statutory 
boundaries. At a minimum, the Agency has abused its power. It 
turns a deaf-ear on the important segments of its constituency, 
99 percent of ground visitors and air tour passengers. It 
engages in a systematic campaign of deception with air tour 
operators. And the airspace control, it cannot obtain 
statutorily because you won't give them--and wisely so--that 
statutory jurisdiction, authority, they seek to obtain by 
intimidation and political pressure.
    S.J.R. 21, the Nevada Legislature asked Congress to effect 
an outcome for the southern Nevada air tour industry that will 
protect, support, and sustain the viability of this significant 
contributor to tourism economy in the State of Nevada and the 
enjoyment of visitors and sightseers.
    That is our request, as well, Mr. Chairman, for without 
your intervention, the end of Grand Canyon air touring, as well 
as air touring nationally is at hand.
    What we would request is this; at the very minimum, because 
you have requested and you have achieved sequential referral of 
H.R. 1000, our request is, at a minimum, number one, that the 
sound standards contained in that piece of legislation that air 
tour operations in the Grand Canyon must be based on valid and 
reasonable scientific methodology and standards, and that such 
standards must allow for the continued existence of a viable 
air tour industry in the Grand Canyon. And, secondarily, the 
provision which ensures that future air tour management plans 
at Lake Meade National Recreation Area, and other public lands 
adjacent to the Grand Canyon, may not be used as artificial 
barriers to the Grand Canyon.
    These are two key provisions of H.R. 1000, and, at the very 
minimum, we request your support on those provisions.
    Thank you for the opportunity to testify. I look forward to 
answering your questions.
    [The prepared statement of Mr. Bassett follows:]

    [GRAPHIC] [TIFF OMITTED] T8698.023
    
    [GRAPHIC] [TIFF OMITTED] T8698.024
    
    [GRAPHIC] [TIFF OMITTED] T8698.025
    
    [GRAPHIC] [TIFF OMITTED] T8698.026
    
    [GRAPHIC] [TIFF OMITTED] T8698.027
    
    [GRAPHIC] [TIFF OMITTED] T8698.028
    
    [GRAPHIC] [TIFF OMITTED] T8698.029
    
    [GRAPHIC] [TIFF OMITTED] T8698.030
    
    [GRAPHIC] [TIFF OMITTED] T8698.031
    
    [GRAPHIC] [TIFF OMITTED] T8698.032
    
    [GRAPHIC] [TIFF OMITTED] T8698.033
    
    [GRAPHIC] [TIFF OMITTED] T8698.034
    
    [GRAPHIC] [TIFF OMITTED] T8698.035
    
    [GRAPHIC] [TIFF OMITTED] T8698.036
    
    [GRAPHIC] [TIFF OMITTED] T8698.037
    
    [GRAPHIC] [TIFF OMITTED] T8698.038
    
    [GRAPHIC] [TIFF OMITTED] T8698.039
    
    Mr. Hansen. Thank you.
    Mr. Snow.

  STATEMENT OF JACOB SNOW, ASSISTANT DIRECTOR, CLARKE COUNTY 
     DEPARTMENT OF AVIATION, McCARRAN INTERNATIONAL AIRPORT

    Mr. Snow. Good afternoon, Mr. Chairman, members of the 
Subcommittee.
    I am Jacob Snow; I am assistant director of aviation for 
the Clark County Department of Aviation in Las Vegas, Nevada. 
We own/operate McCarran International Airport, which is the 
tenth biggest airport in the country.
    Like the Park Service, Clarke County has hired acoustical 
experts to go out and to take noise monitors, similar to this 
one, and to do noise studies in the Grand Canyon. And we would 
agree with Ms. Lowey's assertion that there are parts of the 
Grand Canyon that do get to as low as 15 or 20 decibels, but 
that is only during certain parts of the day.
    The studies that we spent money to do, they weren't cheap, 
but they revealed some very important information. And that is, 
those times of the day that Ms. Lowey and the Park Service are 
referring to occur only, those low noise levels, occur only 
between the hours of 2 a.m. and 7 a.m., when air tours are not 
flying. But, however, during the daytime, when the sun comes, 
and the wind comes up, and the animals are moving, the natural 
ambient noise in those quietest parts of the canyon is 100 
times noisier, on average, about 40 decibels, according to 
Brown and Buntin's extensive noise monitoring in the canyon. 
That is a significant problem because the net effect of that is 
that it overstates aircraft noise. For example, our trained 
experts in the Grand Canyon could look up in the sky, and they 
could see an air tour aircraft flying over, but they couldn't 
hear it and the noise monitor could not register the impact of 
it because the background ambient was so high.
    So, imagine if you are the Park Service and you are saying 
that the noise level in that canyon is 20 decibels or 15 
decibels all day long, and the noise level really gets down 
that low, or if an air tour aircraft were flying over at night, 
which would never happen, then you would notice that air tour 
aircraft much more.
    In pointing this error out to the Park Service and the FAA, 
they shrug their shoulders and they say, ``We are going to go 
ahead and regulate you, and we will sort it all out later.''
    Problem number two, as discussed earlier today, the Park 
Service and the FAA, with their integrated noise model, had no 
way of differentiating between acoustical shielding or lateral 
attenuation of noise. Now let me demonstrate that.
    Suppose that my hand here is an air tour aircraft flying at 
7,500 feet over the Grand Canyon, and we have this microphone 
is a canyon wall in between a group of hikers in the Grand 
Canyon, down here in the canyon. Their model has no way of 
accounting for the attenuation or the natural shielding of that 
canyon wall. However, our noise studies show that for the 
specifically--the type of aircraft, the Dehaviland-6 Twin 
Otter, that operates extensively in the Grand Canyon, the FAA 
and the Park Service are over-predicting that particular 
aircraft by as much as 10 decibels, because they cannot account 
for this lateral attenuation, this natural shielding, that 
takes effect in the Grand Canyon.
    Now it is true that the FAA's integrated noise model is a 
very good tool to use at airports. Since I have been in my 
position at Clarke County, I have seen probably 10 different 
versions of that noise model come out. It is a very good tool 
for measuring noise at airports when you have got about 20 
miles, when you are trying to get the noisiest areas around the 
airport defined, and they use their 65 DNL metric for that. 
However, it is a very lousy tool if you are trying to measure 
noise impacts over hundreds of miles--the Grand Canyon being 
hundreds of miles long--and a big hole in the ground with all 
sorts of natural terrain variations and vegetation barriers. It 
is a terrible tool, especially when you are trying to measure 
noise that is at such a low level.
    The FAA, themselves, will tell you that when it goes--the 
lower you go in trying to measure noise levels with their 
integrated noise model, the less accurate it becomes.
    Third, an area of concern with the noise methodology is, 
Mr. Chairman, as you know, flying aircraft for so long, that 
when a new aircraft goes into service, it has to be 
certificated by the FAA. And part of that certification process 
is extensive noise tests on how noisy it is on takeoff. They do 
max-EPR, max power, on takeoff. They see how noisy it is on 
takeoff. And what they have done, rather than go into the 
canyon and to measure how noisy these air tour aircraft really 
are, they just take that number from their certification data 
that is in their database, and they plug it in to their noise 
model, assuming max power over the Grand Canyon. Now these air 
tour aircraft are not a commercial flight that is trying to go 
from point-A to point-B in the quickest way possible at the 
fastest speed. They are flying back and forth trying to provide 
an air tour; they are trying to fly slower so that people can 
see, rather than pass everything by. They are not flying at max 
power; they are not flying at max speed. And once again, the 
Park Service and FAA have overestimated the true impact from 
air tours.
    Those are my three primary concerns, Mr. Chairman. I would 
like to point out that I would recommend that this Subcommittee 
should insist that the agencies desist from their rulemaking 
and the use of the NPS methodology until they have developed an 
adequate scientific basis for rulemaking. If not, then we are 
just going to be back before this Subcommittee, talking about 
the cart being put before the horse, and we will be still 
dealing with these extreme positions.
    And if you would allow me, Mr. Chairman, I have a brief 
presentation that I would like to make to show how extreme I 
think that this new proposed methodology is, and I would like 
to use this noise monitor to do that, with your permission, 
sir.
    Mr. Hansen. Sure; go ahead.
    Mr. Snow. If I could, I would just like to take this 
precision sound level meter which measures--this will give you 
decibel readout in A-weighted decibels, which is designed to 
correspond to the frequency that the human ear hears. I would 
like to bring this up to the dais and have you hold it, and 
take some noise measurements, similar to what Mr. Gibbons was 
referring to earlier, if you wouldn't mind.
    Mr. Hansen. Come on up.
    Mr Stephen. If you wouldn't mind noting, Mr. Chairman, the 
Park Service, as we have talked about today, has divided the 
National Park, the Grand Canyon, into two different noise 
zones. And they originally started with this definition of 
``natural quiet'' at what we call ``ambient plus 3'' or ``20 
decibels plus three.'' And they notice that in the more 
developed parts of the park and in the areas down by the river 
where there was water, it was just too noisy in those areas to 
even--ever attain that restoration of natural quiet in the 
Grand Canyon. So, irrespective of air tours, they couldn't do 
it in that zone.
    And so, therefore, they have created this more restrictive 
Zone Two, very restrictive noise levels. In fact, they have got 
the ambient in some places measured as low as 15, so if you 
take 8 away from that, you are down to 7.
    So, what I am going to do, if you have noticed while I am 
talking, I don't know what the noise level reads, but would you 
mind just giving the audience a general feel for what the 
average has been on that read-out there?
    Mr. Hansen. Well, I don't know if I am an authority enough 
to read this thing.
    Mr. Snow. Just read what it is saying right now.
    Mr. Hansen. Sixty-four point six.
    Mr. Snow. Okay. What I would like to do is to just take a 
few seconds, and we will see how--if we could ask for quiet--
see how low we can get this room to measure.
    Mr. Hansen. All right. We will ask everyone to be very 
quiet.
    Mr. Snow. How low did we get?
    Mr. Hansen. You got down to 34.
    Mr. Snow. Okay. Once you get below 34 decibels, it is very 
difficult to measure accurately.
    Mr. Hansen. Then when you started speaking, it jumped back 
up to 69.
    Mr. Snow. Yes, sir.
    [Laughter.]
    Let me just put this in perspective. To get down to 7 
decibels from 34, is roughly a 1,000-fold reduction in noise. 
And to meet that standard, the Park Service is going to have to 
get the bugs and the bunnies to get out of the park as well, 
because just the virtue of the fact that insects and animals 
living in the park, they are never going to be able to reach 
that standard.
    We hope to show that this is an extreme proposal, as we 
think it is. The Clark County Department of Aviation, on the 
other hand, when we were at a meeting in Flagstaff with most of 
the key stakeholders in attendance, we wanted to get to middle 
ground, because we have airports in Clark County that we would 
like to see quieter aircraft operating in those airports.
    We think that substantial restoration of the natural quiet 
is a laudable goal. We think--and we proposed it that day, with 
the air tour operators' support, that we put all of these 
issues on the table--caps on operations, curfews, higher 
altitudes, the location of the routes, avoiding sensitive 
lands--and ``let's sit down and let's do a negotiated 
rulemaking on this.'' And the response we got back from the FAA 
and the Park Service is, ``We don't have the resources or the 
time to deal with that.'' The response we got back from the 
environmentalists was, ``Well, shoot; we think we can just get 
rid of you and get all the air tours out of the Grand Canyon. 
That is what our goal is anyway, and so we don't want to 
participate in that. We think we, you know, we can get rid of 
you completely.''
    We have been trying to achieve the middle ground here, and 
I would recommend to the Committee that they direct the Park 
Service and the FAA to--and initiate a negotiated rulemaking so 
that we can reach the balance that Congress said to reach 
between air tours, safety, and concern for the environment.
    Thank you very much.
    [The prepared statement of Mr. Snow follows:]

    [GRAPHIC] [TIFF OMITTED] T8698.040
    
    [GRAPHIC] [TIFF OMITTED] T8698.041
    
    [GRAPHIC] [TIFF OMITTED] T8698.042
    
    [GRAPHIC] [TIFF OMITTED] T8698.043
    
    [GRAPHIC] [TIFF OMITTED] T8698.044
    
    [GRAPHIC] [TIFF OMITTED] T8698.045
    
    [GRAPHIC] [TIFF OMITTED] T8698.046
    
    [GRAPHIC] [TIFF OMITTED] T8698.047
    
    [GRAPHIC] [TIFF OMITTED] T8698.048
    
    [GRAPHIC] [TIFF OMITTED] T8698.049
    
    [GRAPHIC] [TIFF OMITTED] T8698.050
    
    [GRAPHIC] [TIFF OMITTED] T8698.051
    
    [GRAPHIC] [TIFF OMITTED] T8698.052
    
    [GRAPHIC] [TIFF OMITTED] T8698.053
    
    [GRAPHIC] [TIFF OMITTED] T8698.054
    
    [GRAPHIC] [TIFF OMITTED] T8698.055
    
    [GRAPHIC] [TIFF OMITTED] T8698.056
    
    [GRAPHIC] [TIFF OMITTED] T8698.057
    
    [GRAPHIC] [TIFF OMITTED] T8698.058
    
    [GRAPHIC] [TIFF OMITTED] T8698.059
    
    [GRAPHIC] [TIFF OMITTED] T8698.060
    
    [GRAPHIC] [TIFF OMITTED] T8698.061
    
    [GRAPHIC] [TIFF OMITTED] T8698.062
    
    [GRAPHIC] [TIFF OMITTED] T8698.063
    
    [GRAPHIC] [TIFF OMITTED] T8698.064
    
    Mr. Hansen. Thank you, Mr. Snow.
    Mr. Resavage, the floor is yours--our business.

 STATEMENT OF ROY RESAVAGE, PRESIDENT, HELICOPTER ASSOCIATION 
                         INTERNATIONAL

    Mr. Resavage. Thank you, Chairman Hansen, and members of 
the Subcommittee, for allowing me to respond to the changes the 
National Park Service is requesting relative to air tours in 
the Grand Canyon National Park.
    My comments are intended to reflect the interests and 
concerns of the members of the Helicopter Association 
International. HAI is the trade association of the civil 
helicopter industries with members operating more than 4,000 
helicopters and flying in excess of 2 million hours each year. 
HAI provides programs that enhance safety, encourage 
professionalism, and promote the unique contributions of the 
helicopter to society.
    I would like to take a moment to mention HAI's Fly 
Neighborly Program, a program that is adhered to by the air 
tour industry. Through varied instructional techniques, 
attention is focused on the needs of the non-participating 
public on the ground. Numerous technical and common-sense 
approaches that can mitigate sound propagation are stressed to 
the aircrews and their owners. The aviation community 
understands that it must be accountable to a larger 
constituency than its direct customers if it is going to 
maintain its economic viability.
    The evolution of the regulations commented on by other 
witnesses is a perfect example of how the air tour has 
successfully adapted their operations to blend with the 
reasonable expectations of park visitors. However, the current 
proposal to divide the park into two segments with dramatically 
stricter sound limitations does not allow the tour industry the 
latitude of even extending an olive branch in hope of reaching 
a fair compromise.
    One of the questions before the Committee today is whether 
the National Park Service has the statutory power to force its 
perception of what it believes to be right against the wishes 
of the people. There has been no human outcry to rid the Grand 
Canyon of air tours by the millions of people that enjoy its 
majesty every year. Quite the contrary. You have heard 
testimony today that reflects that incredible small percentage 
of people that feel aviation negatively impacted their 
experience. In 1997 and 1998, a combined total of approximately 
78 people complained, out of the 9,700,000 who visited the 
Grand Canyon. Most leaders charged with the governance of a 
diverse constituency would hardly consider those numbers a 
mandate for change.
    It is distressing to see an agency arrogantly pursue its 
own misguided agenda, after being cited by this Committee just 
last year for improper actions. Although this statement appears 
harsh, I don't know how else to account for the Park Service's 
treatment of the sound studies they had manipulated.
    Last year, testimony was given that unequivocally rendered 
the noise study assumptions of the Park Service to a status of 
pseudo-science. It was obvious to all in attendance that the 
sound models were incorrectly altered, and industry standards 
were not followed, and the results of their efforts were not 
subject to the scrutiny of a peer review.
    And I would like to emphasize that for just a minute there 
were some questions earlier about the validity of Mr. Alberti's 
sound studies.
    HAI became aware of the sound studies and USATA wanted us 
to join in this process, we had no reason to doubt them, but we 
also had no reason to be able to testify publicly in support of 
them without a peer review, and that is what we did. Last year, 
you heard testimony from Dr. Ahuja, who was one of the 
country's leading acousticians. This was a gentleman that was 
given no direction--I stress again, he was given no direction 
by our association as to what the outcome of his results should 
be. We asked him to give us the best professional effort he 
could. He did, and he, in fact, concurred with the findings of 
the initial report.
    The Park Service acknowledged there were serious shortfalls 
in their analysis. Yet, in their rush to change the world, they 
proposed even stricter limitations on the air tour industry. 
This was not because new and improved data had been analyzed 
that supports their previous incorrect claim, but because they 
feel they can impose their extreme interpretation on others.
    Anyone who has been to the Grand Canyon and participated in 
either a helicopter or fixed-wing tour can tell you they do not 
fly over assemblages of people. The tours rigidly follow the 
routes and altitudes, as directed by SFAR 50-2, while 
practicing Fly Neighborly flight techniques. The aircrews do 
not deviate from their assigned airspace. All flights are flown 
above the rim of the canyon, away from the tourists, in very 
narrow routes, clear of the free-flight zones that blanket the 
majority of the park. There is only one spot on the extreme 
western edge of the visitors' tour route along the southern rim 
of the canyon that helicopters cross over. The tour industry 
has asked to have this crossing point displaced several miles 
to the west to totally eliminate even the minimal exposure a 
ground tourist might encounter. Unfortunately, no action has 
been directed at this easily correctable situation.
    The acoustic experts agree that new limits imposed by the 
two-tier system are not needed to satisfy the Park Service's 
own definition of ``natural quiet,'' and their attempts to 
justify their position are practically a laughing matter in the 
scientific community.
    The 5 million people who visit the Grand Canyon each year 
are not demanding increased restrictions on the air tour 
industry. In fact, 800,000 visitors per year want to view the 
park via air touring.
    The new restrictions would lower the acceptable sound 
levels in many areas below the human threshold of hearing. If 
the air tour industry is denied access to the areas that are 
not frequented by the vast majority of the visiting public, 
then it would be forced to either operate at a distance so far 
from the canyon as to render its service meaningless, or to 
crowd into the remaining area where the ground visitors are in 
mass. Does this make sense?
    I would like to finish up with a quote from Mark Twain's 
``Gilded Age,'' and it conveys our message with crystal 
clarity.
    ``No country can live well-governed unless its citizens, as 
a body, keep religiously before their minds that they are the 
guardians of the law, and the law officers are only the 
machinery for its execution, nothing more.''
    Honored Committee members, we are the citizens to whom Mark 
Twain refers and we request that you carefully consider the 
pending legislation that you will be acting on in the near 
future.
    I thank the Committee for an opportunity to speak for HAI 
and all its members, and also for the remainder of the air tour 
industry.
    [The prepared statement of Mr. Resavage follows:]

     Statement of Roy Resavage, President, Helicopter Association 
                             International

    Thank you Chairman Hansen, Ranking Member Romero-Barcelo 
and members of the Subcommittee for affording me an opportunity 
to address the changes requested by the National Park Service 
(NPS) relative to air-tour operations at Grand Canyon National 
Park. My comments are intended to reflect the interests and 
concerns of the members of the Helicopter Association 
International (HAI).
    HAI is the trade association of the civil helicopter 
industry with members operating more than 4,000 helicopters and 
flying in excess of 2,000,000 hours each year. HAI provides 
programs that enhance safety, encourage professionalism and 
promote the unique contributions made by helicopters to 
society.
    I would like to take a moment to mention HAI's Fly 
Neighborly program, a program that is adhered to by the air-
tour industry. Through varied instructional techniques, 
attention is focused on the needs of the non-participating 
public on the ground. Numerous technical and common sense 
approaches that can mitigate sound propagation are stressed to 
the aircrews. The aviation community understands that it must 
be accountable to a larger constituency than its direct 
customers if it is going to maintain its economic viability.
    The evolution of regulations commented on by other 
witnesses is a perfect example of how the air-tour industry has 
successfully adapted their operations to blend with the 
reasonable expectations of the Park visitors. However, the 
current proposal to divide the park into two segments with 
dramatically stricter sound limitations does not allow the tour 
industry the latitude of extending an olive branch in hope of 
reaching a fair compromise.
    One of the questions before this Committee today is whether 
the National Park Service has the statutory power to force its 
perception of what it believes to be right against the wishes 
of the public. There has been no human outcry to rid the Grand 
Canyon of air tours by the millions of people that enjoy its 
majesty every year. Quite the contrary. You have already heard 
testimony today that reflects the incredibly small percentage 
of people that felt that aviation negatively impacted their 
experience. In 1997 and 1998 a combined total of approximately 
78 people (.000008 percent) complained out of the 9,700,000 who 
visited the Grand Canyon. Most leaders charged with the 
governance of a diverse constituency would hardly consider 
those numbers a mandate for change.
    It is distressing to see an agency arrogantly pursue its 
own misguided agenda, after being cited by this Committee for 
improper actions. Although that statement appears harsh, I 
don't know how else to account for the Park Service's treatment 
of the sound studies they have manipulated.
    Last year, testimony was given that unequivocally rendered 
the noise study assumptions of the Park Service to a status of 
pseudo-science. It was obvious to all in attendance that sound 
models were incorrectly altered, industry standards were not 
followed, and the results of their efforts were not subjected 
to the scrutiny of a peer review. The Park Service acknowledged 
there were serious shortfalls in their analysis, yet in their 
rush to change the world to fit their agenda, they have 
proposed even stricter limitations on the air-tour industry. 
This was not because new and improved data have been analyzed 
that supports their previous incorrect claim, but because they 
feel they can impose their extreme interpretation on others.
    Anyone who has been to the Grand Canyon and participated in 
either a helicopter or fixed wing tour can tell you that they 
do not fly over assemblages of people. The tours rigidly follow 
the routes and altitudes as directed by SFAR 50-2, while 
practicing Fly Neighborly flight techniques. The aircrews do 
not deviate from their assigned airspace. All flights are flown 
above the rim of the canyon, away from the tourists, in very 
narrow routes, and clear of the flight-free zones that blanket 
the majority of the Park. There is only one spot on the extreme 
western edge of the visitor tour route along the southern rim 
of the canyon that the helicopters cross over. The tour 
industry has asked to have this crossing point displaced 
several miles to the west to totally eliminate even the minimal 
exposure a ground tourist might encounter. Unfortunately no 
action has been directed at this easily correctable situation.
    The acoustic experts agree that the new limits imposed by 
the two-tier system are not needed to satisfy the Park 
Service's own definition of natural quiet, and their attempts 
to justify their position are practically a laughing matter to 
the scientific community. The 5,000,000 people who visit the 
Grand Canyon each year are not demanding increased restrictions 
on the air-tour industry. In fact 800,000 visitors per year 
want to view the park via air touring.
    The new restrictions would lower the acceptable sound 
levels in many areas below the human threshold of hearing. If 
the air-tour industry is denied access to the areas that are 
not frequented by the vast majority of the visiting public, 
then it would be forced either to operate at a distance so far 
from the Canyon as to render it's service meaningless, or to 
crowd into the remaining area where the ground visitors are in 
mass. Does this make sense to anyone?
    A quote from Mark Twain's Golden Age, conveys our message 
with crystal clarity:

        ``No country can live well governed unless its citizens as a 
        body keep religiously before their minds that they are the 
        guardians of the laws and that the law officers are only the 
        machinery for its execution, nothing more.''
    Mr. Chairman and honored Committee members, we are the citizens to 
whom Mark Twain refers. The National Park Service is the machinery for 
executing the law. Therefore, we the citizens, ask that you enact a law 
that will get the machinery back on line, and preserve the right of our 
citizens to responsibly enjoy the Grand Canyon as they do today.
    I thank the Committee and its leaders for this opportunity to be 
heard and look forward to answering your questions.

    Mr. Hansen. Thank you.
    Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    Mr. Bassett, you have been involved with the ARAC Working 
Group; have you not, for some time?
    Mr. Bassett. The Overflights Working Group?
    Mr. Gibbons. Yes.
    Mr. Bassett. The National--yes. I am not a member of the 
working group, but, yes, involved.
    Mr. Gibbons. You have been involved.
    To your best understanding and recollection, did the Park 
Service ever bring to the working group, to their attention, 
that they were working on changing the methodology or standards 
for determining this ambient noise standard?
    Mr. Bassett. Not once. Had they done that, that would 
probably have been a series of very short, brief meetings, and 
it would have been over.
    Mr. Gibbons. Well do you believe, then, that the Park 
Service was acting in good faith during all these negotiations 
over the past years?
    Mr. Bassett. Absolutely not. In fact, Congressman, I don't 
believe the Park Service has worked in good faith on any of 
these issues, with respect to air touring, particularly in the 
Grand Canyon.
    Mr. Gibbons. Mr. Snow, let me ask you a quick question 
about liability. Could you address any of the liability 
concerns that would be caused by implementing this new 
standard?
    Mr. Snow. I think for the agencies to go forward at this 
point in time, when there is enough evidence on the record 
about the invalidity of the noise methodology, for them to 
proceed forward with regulating the industry at this time, 
opens the Federal Government up to a significant amount of 
liability. And they certainly would be subject to challenge, 
and the precedent is established that they would not be able 
to--under scrutiny, it wouldn't hold up in a court of law.
    Mr. Gibbons. So, in essence, what you are saying is, when 
there is a contract, say, between an aircraft manufacturer and 
an air tour operator who had ordered aircraft to be made and 
purchased under certain standard ambient conditions of noise 
production of the aircraft, if the government comes in, then, 
and changes those standards that can't be met by the aircraft, 
someone is going to lose in that contract, whether it is the 
air tour operator or the manufacturer, under that contract. 
Then would the government, then, be liable for changing the 
standards at that point in time?
    Mr. Snow. I am not an attorney--I play one on TV on 
occasion--but I would say ``yes'' to that question--and I am 
kidding about being on TV.
    [Laughter.]
    Mr. Gibbons. Mr. Resavage, do you use noise abatement 
procedures for helicopter operations?
    Mr. Resavage. Yes, sir; we certainly do. There are many 
things that the aviation industry, as a whole--and the 
helicopter industry, in particular--can do, in addition to 
quiet technology.
    Before I get off on those, though, I would like to say that 
one of our board members is a principal operator of helicopters 
in the Grand Canyon, and he is developing, at his own expense, 
ultra-quiet technology for helicopter tours, which will 
significantly reduce their levels.
    But there are other things that you can do that are common 
sense that, again, don't fall in the realm of rocket science. 
If you climb quickly so that you don't constantly fly at low 
altitude over people, you can do that. If you adjust your air 
speeds, you can control your sound propagation. Adjusting your 
rotor RPM will also have an effect on sound. The rate that you 
descend, and also the airspeed that you descend at, can 
mitigate the sounds of what we call ``blade slap.'' All of 
these things can be done--making smooth maneuvers instead of 
radical maneuvers can greatly reduce the noise that is 
generated by the aircraft. These things are all practiced, not 
only by the helicopter community, but also the fixed-wing 
community that operate in the tour, sir.
    Mr. Gibbons. Mr. Resavage, you have indicated in your 
testimony that you have approached the Park Service in order to 
modify routes to make them less intrusive to ground park 
visitors.
    Can you explain whether the Park Service has responded to 
your requests or not?
    Mr. Resavage. I have not personally asked them, but many of 
the operators behind me can, and I am sure they could probably 
give you dates and times that they have done that. They have 
repeatedly asked to have the final route where they come back 
over the canyon, prior to going to the airport, they have to 
cross the rim at some point. The point that they have I believe 
is called ``Hermit's Lookout,'' or something similar to that, 
and it is at the extreme western end of where their little bus 
tour is. If they were to displace that two or three miles to 
the west, the people in that point, at the western-most point, 
would not even hear them. To my knowledge, sir, there has been 
no feedback to the tour industry that would accommodate that 
request.
    Mr. Gibbons. So the Park Service has, in their action, 
refused to change the route, as requested by the helicopter 
operators to make it quieter, from the impact of the 
helicopter. This is what you are saying?
    Mr. Resavage. Yes, sir; that is my knowledge of the 
situation.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    Mr. Hansen. Thank you, Mr. Gibbons.
    Mr. Snow, you said on the north rim, with this--let's say 
around noon, say, there at the lodge, you know, where that big 
circle is and the whole bit, and there is cars and there is 
motorcycles and there is people and all that stuff.
    What do you think this would register?
    Mr. Snow. I think it would register very similar to the 
noise levels we registered in this room.
    Mr. Hansen. Between 60 to 70----
    Mr. Snow. Probably 70----
    Mr. Hansen. [continuing] somewhere in there?
    Mr. Snow. I would say between 60 and 80 decibels.
    Mr. Hansen. Now, let's put Mr. Stephen's Twin Otter flying 
over, 7,500 feet above. What does it go up to?
    Mr. Snow. It is probably going to up to about 40, 45.
    Mr. Hansen. Let's put a group of Hell's Angels going 
through on Harleys.
    [Laughter.]
    What does it go up to?
    Mr. Snow. Hell's Angels going through on a Harley. I would 
say that that is probably going to exceed the 94 decibel limit 
at the top of that noise-level meter.
    Mr. Hansen. Now, let's fly you down in the canyon--I guess 
we would have to have an emergency to get you there, but we did 
put that in the bill, because I did that myself--and put you 
near Lava Falls or Crystal. Now what is it?
    Mr. Snow. Near one of the falls down there?
    Mr. Hansen. I think Crystal and Lava Falls are the two I 
fear the most when I go through there. And they are noisy 
rascals. What----
    Mr. Snow. We are near the falls----
    Mr. Hansen. [continuing] are they going to up to?
    Mr. Snow. [continuing] I think we are probably going to be 
off the scale for that. We will be above 94 decibels if we are 
real close to the falls.
    Mr. Hansen. Let's take an F-15 out of Nellis and fly it 
right up there. Now what are you going to?
    Mr. Snow. Afterburner Estates----
    [Laughter.]
    We are off the scale, again.
    Mr. Hansen. I see.
    Mr. Snow. I think the loudest one we get is the----
    Mr. Hansen. Okay, let's take a Cessna 210, and fly it over 
there above. What is it going to go up to?
    Mr. Snow. Cessna 210 would probably be in the 50----
    Mr. Hansen. It would?
    Mr. Snow. Yes.
    Mr. Hansen. Now move out to Point Royal out there. Is that 
what you called that, Mr. Arnberger, out there when we--Point 
Royal. A little quieter there. What would this thing be?
    Mr. Snow. It depends on what time of day. If it was doing 
the daytime, it would probably be somewhere between 30 and 40 
decibels.
    Mr. Hansen. Okay, let's make it 2 in the morning. What is 
it?
    Mr. Snow. Probably between 20 and 25 decibels at Point 
Royal; maybe a little bit lower.
    Mr. Hansen. Mr. Bassett, do you think with all that, that 
the aircraft are getting picked on?
    [Laughter.]
    Mr. Bassett. Thank you for the softball, Mr. Chairman.
    Absolutely we do, and the concern that we have, in that 
regard, is a comment that was made by the administration and 
that was ``This change in the definition of `natural quiet' 
does not, in itself, exclude aircraft.''
    Well, of course it does.
    Mr. Hansen. A lot of people are of the opinion--and I don't 
buy the conspiracy theories--but a lot of people are of the 
opinion that the administration on wilderness, national parks--
well, not national parks, but monuments, areas like that--that 
they definitely are death on mining. Also, they are death on 
aircraft. Do you subscribe to that?
    Mr. Bassett. Absolutely. And what we have found over the--
you know, we are an easy target. We are visible; we are there. 
We advertise; people who go into Las Vegas or into Utah or 
Arizona, I mean they see the ads. I mean this is a visible 
industry, although it is a very small industry, so it becomes a 
very easy target. And, also, because we are small, from a 
political perspective, you know, we are not a multibillion 
dollar lobby, I mean, and so we, at that point, become a very 
easy target--probably the first of many, but very easy, 
nonetheless.
    Mr. Hansen. Mr. Resavage, we have talked a lot about 
technology, and I think the gentleman from Nevada has alluded 
to some of these things, but how do you hear a Huey or a 
Blackhawk or a Cobra or even some new--they are pretty noisy 
rascals. I mean you hear ``whoop, whoop, whoop'' in those 
babies, and stuff like that. Now, I get into the Ranger-3 and 
some of those are a lot quieter. What technology are they doing 
on helicopters?
    Mr. Resavage. They are doing a lot to decrease the sound of 
the aircraft--or the noise that is emitted from helicopters, 
sir.
    They are working on rotor technology. They are trying to 
slow down the blade-tip speed which would decrease the sound. 
They are altering the way the tail rotor guidance is given; 
they are going to fenestrons and no-tail rotor, arrangements 
which greatly reduce the noise. So those things are being 
contemplated.
    They are even working on baffling and acoustic techniques 
for the engines, even though the engines are a lower noise 
emitter than the main transmission and rotor and tail rotor 
system. So they are working on all of those.
    Also, some of the aircraft that you mentioned, Mr. 
Chairman, are very old vintage military aircraft that were not 
designed to be unobtrusive, I guess if you will. They are 
designed for maximum performance of their mission, and stealth 
was not part of that mission. So those technologies--there are 
a lot of aircraft that are still out there that are noisier 
than the new-generation aircraft, but those manufacturing 
techniques are no longer being followed, and those are not the 
type of aircraft that are being flown in the Grand Canyon 
National Park today.
    Mr. Hansen. The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman.
    I certainly hope that if these types of regulations may 
never get approved. But anytime regulations like this come to 
being, I would only hope that the Park Service limits its own 
aircraft, helicopter activities, to the same noise levels that 
these gentlemen and the air tour industry have been attempting 
to do, also. Because I think they may be contributing to their 
own noisy parks, as well.
    But my question would be, Mr. Chairman, to Mr. Bassett, 
maybe. Of all the people that travel with your service over the 
Grand Canyon, and many of them are either old, infirm, 
disabled, or very young and have no other means by which to see 
the Grand Canyon--it is a two-part question. One, does this 
regulation, or would this regulation, by excluding your 
service, deny them access to the park?
    And, secondly, what would we do to ensure that they had the 
access to a park, to see the grandeur of the Grand Canyon, 
without your service available to them?
    Mr. Bassett. Congressman, part one, the number is about 62 
percent. Those who take air tours of the Grand Canyon, who are 
either under 15 years old, elderly--over 50, have some kind of 
health-related problem, or, indeed, are disabled. That number 
is somewhere in the neighborhood of 62 percent, total.
    And the answer to question two, would they have access to 
the park? Well, I guess they would. I guess there is a way for 
them to access the park, but there is certainly not a way for 
them, given that, to see the park. I guess the Park Service 
could argue that there are alternatives for them. For example, 
they can ride into it and stand and look. If they are disabled, 
they may have a difficult time getting in or out of vehicles 
and--so it would be difficult to sit here and say, ``Well, they 
don't have an alternative,'' because I am sure the Park Service 
would argue that they do. But, would it be an alternative that 
would give them any type of reasonable view of the Grand 
Canyon, such as they are able to get by air tour? Absolutely 
not.
    And, if this modification of the definition of ``natural 
quiet'' is permitted to be implemented, as the January notice 
suggested, then we are only a short step or two away from an 
NPRM and a regulatory action that, then, says, ``Well, because 
of this, you can no longer fly aircraft in this area.''
    The change in definition doesn't, in itself, eliminate 
aircraft. The frightening part is the regulation that comes 
after that will eliminate the aircraft.
    Mr. Hansen. The gentleman from Nevada has brought up a very 
interesting point, though. You know we get all kinds of letters 
from people; we average maybe 100 letters a day in all our 
offices. And people from BART--you know that retired group? 
They write on a regular basis. I look at my own in-laws, my 
father-in-law and mother-in-law in their late-80's, who had 
never seen the Grand Canyon or Glen Canyon Recreation Area. And 
they flew over it; they raved about it for a long time, what a 
beautiful experience it was.
    Now, those of us in Congress, we got to say--well, look; it 
is a big country out there, and more than just the person who 
is young and athletic and well-heeled deserves to enjoy some of 
our parks. And I think the aircrafts has been the answer for a 
lot of those. Maybe at an inconvenience to somebody else, but 
at some time I am inconvenienced every day of my life, as you 
are, too.
    And so, somewhere, there is some moderation in this thing, 
and I would hope, working with the Park Service, we could come 
to something we could all agree on with this administration.
    I thank this committee--or the panel for being with us.
    Superintendent Arnberger, did you--you didn't get a chance 
to talk. Do you want to come on up and say a word or two, or 
would you rather not?
    You are welcome to, and I would invite you to come up if 
you are so inclined. This is the man that has to catch the 
slings and the arrows, you know. Sometimes my heart goes out to 
our superintendents; they get caught and be in a vise sometime. 
And if you would like to say a word or two, we welcome you to 
take the mike there.
    Mr. Arnberger. Well, you are very kind, and I won't take 
the mike for very long. I will be seeing you later, I think, to 
discuss other issues.
    But I just want to assure this panel--and it is, obviously, 
that there is a creditability gap here, but this National Park 
Service and the Grand Canyon National Park is trying to find a 
balance. In fact, every year in Tusayan, we have a big July 4 
event, and our community does. And every year, I end up buying 
some air tour tickets for my family that I use for my family. 
My father, who is old and infirmed, in fact, has taken that 
tour. We are not interested in putting the air tour business 
out of business. We are interesting in finding that balance, 
and that is the difficulty. And we will continue to stride 
forward with the FAA to do that, and all the interested to do 
that.
    Mr. Hansen. Well, thank you; I appreciate those remarks. 
Every superintendent has his cross to bear, so to speak. Mike 
Finley sits up there in Yellowstone wondering what to do with 
all those impassable roads. We got sewer system problems down 
in the Everglades. Every time my phone rings, it is another 
superintendent telling me the problems he has got. So, my heart 
goes out to all of them.
    But let me thank you folks for the excellent testimony. It 
has been very interesting, and believe me, the Committee will 
do a lot in digesting this and trying to work with the 
Department of Interior and this administration in coming up 
with something that we hope is very reasonable.
    And this is quite an instrument you have here, Mr. Snow.
    [Laughter.]
    I would like to take this to the House floor on occasion.
    [Laughter.]
    I could make some great use of it. And with that, we will 
consider the meeting adjourned.
    [Whereupon, at 12:34 p.m., the Subcommittee adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T8698.065
    
    [GRAPHIC] [TIFF OMITTED] T8698.066
    
    [GRAPHIC] [TIFF OMITTED] T8698.067
    
    [GRAPHIC] [TIFF OMITTED] T8698.068
    
    [GRAPHIC] [TIFF OMITTED] T8698.069
    
    [GRAPHIC] [TIFF OMITTED] T8698.070
    
    [GRAPHIC] [TIFF OMITTED] T8698.071
    
    [GRAPHIC] [TIFF OMITTED] T8698.072
    
    [GRAPHIC] [TIFF OMITTED] T8698.073
    
    [GRAPHIC] [TIFF OMITTED] T8698.074
    
    [GRAPHIC] [TIFF OMITTED] T8698.075
    
    [GRAPHIC] [TIFF OMITTED] T8698.076
    
    [GRAPHIC] [TIFF OMITTED] T8698.077
    
    [GRAPHIC] [TIFF OMITTED] T8698.078
    
    [GRAPHIC] [TIFF OMITTED] T8698.079
    
    [GRAPHIC] [TIFF OMITTED] T8698.080
    
    [GRAPHIC] [TIFF OMITTED] T8698.081
    

</pre></body></html>
